No. 20-XXXX

In the Supreme Court of the United States
NATHANIEL RICHARD HULL, IN HIS CAPACITY AS
CHAPTER 7 TRUSTEE FOR THE BANKRUPTCY ESTATE OF
JEFFREY J. ROCKWELL, PETITIONER
v.
JEFFREY J. ROCKWELL, RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

NATHANIEL R. HULL
VERRILL DANA LLP
One Portland Square
Portland, ME 04101
(207) 253-4726

ZACHARY D. TRIPP
Counsel of Record
JOSHUA HALPERN
WEIL, GOTSHAL & MANGES LLP
2001 M Street NW
Washington, DC 20036
(202) 682-7000
zack.tripp@weil.com

QUESTION PRESENTED

Virtually every State has a “homestead exemption”
that shields a debtor’s home from attachment and execution. Most States also permit the debtor to sell his or
her home and buy a new one within a limited time (say,
six months). But if the debtor fails to timely reinvest,
the exemption expires and creditors can attach or execute upon the proceeds.
The Bankruptcy Code incorporates “State or local
law that is applicable on the date of the filing of the petition” to determine what property is exempt from distribution to creditors. 11 U.S.C. 522(b)(3). In conflict
with the Ninth Circuit and Fifth Circuit, the First Circuit held that, inside bankruptcy, a homestead exemption can never expire even if it would have expired under applicable state law outside bankruptcy. That decision enables debtors to permanently shield proceeds
from bankruptcy creditors even after the debtor sold the
home, the reinvestment period elapsed, and the money
is being kept as cash. The question presented is:
Whether a debtor may keep a state-law homestead
exemption inside bankruptcy, notwithstanding that the
proceeds would be subject to attachment and execution
outside bankruptcy because the debtor sold the home
and the exemption expired under applicable state law.

(i)

RELATED PROCEEDINGS

United States Bankruptcy Court for the District of
Maine:
In re: Jeffrey J. Rockwell d/b/a Rockwell Productions f/d/b/a Rockwell Productions, Inc., Debtor,
No. 15-20583 (Aug. 23, 2018)
District Court for the District of Maine:
Hull v. Rockwell, No. 2:18-cv-00385-JAW (Sept. 24,
2019)
United States Court of Appeals for the First Circuit:
Rockwell v. Hull (In re Rockwell), No. 19-2074 (July
30, 2020)

(ii)

TABLE OF CONTENTS

Opinions below.................................................................. 1
Jurisdiction ....................................................................... 1
Statutory provisions involved ......................................... 2
Statement .......................................................................... 2
A. State homestead exemptions ............................... 5
B. Exemptions inside bankruptcy ............................ 7
C. Factual background .............................................. 9
D. Procedural history............................................... 10
Reasons for granting the petition ................................. 11
I. The circuits are divided on the question
presented ............................................................. 13
II. The question presented is recurring and
important ............................................................. 17
III. The decision below is erroneous ........................ 21
IV. This case is an ideal vehicle ............................... 26
Conclusion ....................................................................... 27
Appendix A — Court of appeals opinion (July 30,
2020) .................................................. 1a
Appendix B — District court opinion and order
(September 24, 2019).................... 19a
Appendix C — Bankruptcy court opinion and
order (August 23, 2018) ................ 45a
Appendix D — Statutory provisions ........................ 64a

(iii)

(iv)
TABLE OF AUTHORITIES
Page(s)
Cases

In re Awayda,
574 B.R. 692 (Bankr. C.D. Ill. 2017) .................... 18
In re Bedell,
173 B.R. 463 (Bankr. W.D.N.Y. 1994) ................. 18
In re Bellafiore,
492 B.R. 109 (Bankr. E.D.N.Y. 2013) .................. 18
In re Bencomo,
No. 15-1442, 2016 WL 4203918 (B.A.P. 9th
Cir. Aug. 8, 2016) .................................................. 21
In re Binesh,
542 B.R. 1 (Bankr. C.D. Cal. 2015) ...................... 18
In re Brown,
614 B.R. 416 (B.A.P. 1st Cir. 2020) ...................... 22
In re Burciaga,
944 F.3d 681 (7th Cir. 2019) ................................ 19
Butner v. United States,
440 U.S. 48 (1979) ................................................ 23
In re Cerchione,
398 B.R. 699 (Bankr. D. Idaho), aff’d, 414 B.R.
540 (B.A.P. 9th Cir. 2009) .................................... 18
Clark v. Rameker,
573 U.S. 122 (2014)................................... 12, 24, 26
In re DeBerry,
884 F.3d 526 (5th Cir. 2018) ...................... 3, 16, 26
In re Dudley,
617 B.R. 149 (Bankr. E.D. Cal. 2020) .................. 18
In re Earnest,
42 B.R. 395 (Bankr. D. Or. 1984) ......................... 18
In re England,
975 F.2d 1168 (5th Cir. 1992) .......................... 6, 24

(v)
Exchange Bank & Tr. Co. v. Mathews,
591 S.W. 2d 354 (Ark. Ct. App. 1979) .................... 6
Florida Dep’t of Revenue v. Piccadilly Cafeterias,
Inc.,
554 U.S. 33 (2008) ................................................ 24
In re Foreacre,
358 B.R. 384 (Bankr. D. Ariz. 2006) .................... 18
In re Frost,
744 F.3d 384 (5th Cir. 2014) ........................ passim
Gaughan v. Smith,
342 B.R. 801 (B.A.P. 9th Cir. 2006) ..................... 18
In re Golden,
789 F.2d 698 (9th Cir. 1986) ........................ passim
Grogan v. Garner,
498 U.S. 279 (1991)............................................... 16
Harrell v. Bank of Wilson,
445 P.2d 266 (Okla. 1968) ...................................... 6
Harris v. Veigelahn,
135 S. Ct. 1829 (2015) .......................... 9, 10, 16, 26
Hartford Underwriters Ins. Co. v. Union Planters
Bank, N.A.,
530 U.S. 1 (2000) .................................................. 17
In re Hawk,
871 F.3d 287 (5th Cir. 2017) ........................ passim
International Harvester Credit Corp. v. Ross,
538 P.2d 655 (Kan. 1975) ....................................... 6
In re Jacobson,
676 F.3d 1193 (9th Cir. 2012) ...................... passim
In re Konnoff,
356 B.R. 201 (B.A.P. 9th Cir. 2006) ..................... 18
In re Lantz,
446 B.R. 850 (Bankr. N.D. Ill. 2011) .................... 18
Law v. Siegel,
571 U.S. 415 (2014)..................................... 8, 16, 21

(vi)
Marcum v. Edwards,
205 S.W. 798 (Ct. App. Ky. 1918) ........................... 7
In re Marriott,
427 B.R. 887 (Bankr. D. Idaho 2010) ................... 18
In re Meeks,
Bankr. No. 05-21952, 2006 WL 4458354
(Bankr. N.D. Ohio 2006)....................................... 19
Millsap v. Faulkes,
20 N.W. 2d 40 (1945) .............................................. 6
Mission Prod. Holdings, Inc. v. Tempnology, LLC,
139 S. Ct. 1652 (2019) .............................. 23, 24, 26
Myers v. Matley,
318 U.S. 622 (1943)......................................... 14, 15
In re Northington,
876 F.3d 1302 (11th Cir. 2017) ............................ 22
Orange Brevard Plumbing & Heating Co. v.
La Croix,
137 So.2d 201 (Fla. 1962) ....................................... 6
Owen v. Owen,
500 U.S. 305 (1991)....................................... passim
In re Patterson,
825 F.2d 1140 (7th Cir. 1987) .............................. 19
In re Reed,
184 B.R. 733 (Bankr. W.D. Tex. 1995) ................. 19
In re Smith,
526 B.R. 343 (D. Ariz. 2015) ................................. 18
In re Snowden,
386 B.R. 730 (Bankr. C.D. Ill. 2008) .................... 18
In re Stewart,
452 B.R. 726 (C.D. Ill. 2011) ................................ 18
In re Thomas,
BKY 17-43661-MER, 2018 WL 3655654
(Bankr. D. Minn. July 31, 2018) .......................... 18

(vii)
Walbridge v. Estate of Beaudoin,
48 A.3d. 964 (N.H. 2012) ........................................ 6
In re Ward,
595 B.R. 127 (Bankr. E.D.N.Y. 2018) .................. 18
In re Williams,
515 B.R. 395 (Bankr. D. Mass. 2014) ................... 18
In re Winchester,
46 B.R. 492 (B.A.P. 9th Cir. 1984), superseded
by statute on other grounds, 11 U.S.C.
348(f)(1)(A) ............................................................ 18
In re Zibman,
268 F.3d 298 (5th Cir. 2001) .................. 3, 4, 15, 16
Constitional Provisions, Statutes & Rules

U.S. Const. Art. I, § 8, cl. 4 ......................................... 3
1 U.S.C. 1 ................................................................... 22
11 U.S.C. 348 ............................................................. 10
11 U.S.C. 522 ..................................................... passim
11 U.S.C. 541 ......................................................... 7, 23
11 U.S.C. 727 ............................................................... 8
11 U.S.C. 1307 ............................................................. 9
11 U.S.C. 1328 ............................................................. 8
26 U.S.C. 504 ............................................................. 23
28 U.S.C. 1254 ............................................................. 1
50 U.S.C. 3806 ........................................................... 23
Bankruptcy Act of 1898, § 6, 30 Stat. 544 ................ 20
Fla. Const. Art. 10, § 4 ................................................ 6
Ariz. Rev. Stat. § 33-1101(C) ...................................... 6
Cal. Civ. Proc. Code § 704.720 .................................... 6
Colo. Rev. Stat. § 38-41-207 ........................................ 6
Haw. Rev. Stat. § 651-96 ............................................. 6
Idaho Code § 55-1008 .................................................. 6
735 Ill. Comp. Stat. 5/12-906 ...................................... 6
Iowa Code § 561.20 ...................................................... 7
Mass. Gen. Laws ch. 188, § 11 .................................... 6

(viii)
Me. Rev. Stat. tit. 14 § 4422 .................................... 6, 9
Minn. Stat. § 510.07 .................................................... 6
Mont. Code Ann., § 70-32-213 ..................................... 6
N.D. Cent. Code § 47-18-16 ......................................... 6
Neb. Rev. Stat. § 40-113 .............................................. 6
Nev. Rev. Stat. § 115.055 ............................................ 6
N.Y. C.P.L.R. § 5206.................................................... 6
Ohio Rev. Code Ann. § 2329.66 ................................... 7
Or. Rev. Stat. § 18.395 ................................................ 6
S.D. Codified Laws § 43-45-3 ...................................... 6
Tex. Prop. Code Ann. § 41.001 .................................... 6
Tex. Prop. Code Ann. § 42.0021 ................................ 20
Utah Code Ann. § 78-23-3 ........................................... 6
Va. Code Ann. § 34-8 ................................................... 7
Wash. Rev. Code § 6.13.070 ........................................ 6
Wis. Stat. § 815.20 ....................................................... 6
Fed. R. Bankr. P. 1009 .............................................. 23
Other Authorities

American Bankruptcy Inst., Annual Business
and Non-business Filings by Year (1980-2019),
https://abi-org.s3.amazonaws.com/Newsroom/Bankruptcy_Statistics/Total-BusinessConsumer1980-Present.pdf .................................. 17
Bankruptcy: The Next Twenty Years, National
Bankruptcy Review Commission Final Report
(1997)....................................................................... 7
Brief of Christopher G. Bradley et al. as Amici
Curiae, In re Hawk, No. 16-20641
(5th Cir. Aug. 14, 2017) ........................................ 20
Collier on Bankruptcy (16th ed. 2020) ....................... 8
Exemption of Proceeds of Voluntary Sale of
Homestead, 1 A.L.R. 483 ...................................... 20

(ix)
Danielle Nicole Rushing, Use It or Lose It:
Grappling with Classification of Post-Petition
Sale Proceeds Under Chapter Seven
Bankruptcy, 47 St. Mary’s L. J. 901 (2016) ......... 21
George L. Haskins, Homestead Exemptions,
63 Harv. L. Rev. 1289 (1950)........................ 6, 7, 24
Jonathan D. Fisher, Who Files for Personal
Bankruptcy in the United States,
53 J. Consumer Aff. 2003 (2019) .......................... 17
Teresa A. Sullivan, et al., The Fragile Middle
Class: Americans in Debt (2000) .......................... 17
Troy A. McKenzie, Judicial Independence,
Autonomy and the Bankruptcy Courts,
62 Stan. L. Rev. 747 (2010) .................................. 26
Victor D. López, State Homestead Exemptions
and Bankruptcy Law: Is it Time for Congress
to Close the Loophole?,
7 Rutgers Bus. L. J. 143 (2010) .............................. 5

In the Supreme Court of the United States
NO. 20-XXXX
NATHANIEL RICHARD HULL, IN HIS CAPACITY AS
CHAPTER 7 TRUSTEE FOR THE BANKRUPTCY ESTATE OF
JEFFREY J. ROCKWELL, PETITIONER
v.
JEFFREY J. ROCKWELL, RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

OPINIONS BELOW

The opinion of the court of appeals (App. 1a-18a) is
published at 968 F.3d 12. The opinion of the district
court (App. 19a-44a) is published at 610 B.R. 1. The
opinion of the bankruptcy court (App. 45a-63a) is published at 590 B.R. 19.
JURISDICTION

The judgment of the court of appeals was entered on
July 30, 2020. On March 19, 2020, the Court issued an
order extending the time for filing a petition for a writ
of certiorari to 150 days from the judgment. The jurisdiction of this Court rests on 28 U.S.C. 1254(1).

(1)

2
STATUTORY PROVISIONS INVOLVED

In pertinent part, 11 U.S.C. 522(b) provides that:
(1) Notwithstanding section 541 of this title, an individual debtor may exempt from property of the
estate the property listed in … paragraph (3) of this
subsection.
…
(3) Property listed in this paragraph [includes] –
(A) … any property that is exempt under …
State or local law that is applicable on the date
of the filing of the petition …
Other statutory provisions are reproduced in the appendix to the petition. App. 64a.
STATEMENT

This case presents an important and recurring question of statutory interpretation that divides the courts
of appeals and has long divided the lower courts, regarding the treatment of “homestead” exemptions in bankruptcy. The Bankruptcy Code incorporates “State or local law that is applicable on the date of the filing of the
petition” to determine what property is exempt from distribution to creditors inside bankruptcy. 11 U.S.C.
522(b)(3). Most States have “homestead” exemptions
that protect a debtor’s home from attachment and execution, and allow the debtor to sell the home and buy a
new one within a limited time (say, six months). But if
the debtor fails to timely reinvest, the exemption expires
and creditors can attach or execute upon the proceeds.
The question is whether that outcome is fundamentally different inside bankruptcy. If a debtor sells their
home but fails to buy another one within the state-law
reinvestment period, so the proceeds would be subject to

3
collection efforts outside bankruptcy, are those proceeds
similarly subject to distribution to creditors inside bankruptcy? Or does the Bankruptcy Code preempt temporary state-law exemptions and transform them into permanent exemptions, enabling the debtor to keep the
proceeds shielded from bankruptcy creditors notwithstanding that they are simply being kept as cash?
The circuits are squarely divided on this issue, with
three circuits adopting different rules of law. The First
Circuit below held (wrongly) that, so long as an exemption applied at the beginning of the bankruptcy, the
property remains exempt throughout the bankruptcy,
regardless of subsequent developments. The First Circuit candidly admitted that its decision “is (or seems) at
odds” with decisions of the Ninth and Fifth Circuits.
App. 15a. Indeed, in conflict with the First Circuit, the
Ninth Circuit has (rightly) held that state-law homestead exemptions expire inside bankruptcy at the same
time they would expire outside bankruptcy. See In re
Jacobson, 676 F.3d 1193, 1199 (9th Cir. 2012); In re
Golden, 789 F.2d 698, 700 (9th Cir. 1986). And the Fifth
Circuit has adopted a confusing intermediary position:
homestead exemptions usually expire at the same time
inside and outside bankruptcy, In re Frost, 744 F.3d 384,
388-389 (5th Cir. 2014), In re Zibman, 268 F.3d 298,
304-305 (5th Cir. 2001), unless it is a post-petition sale
and the debtor is proceeding under Chapter 7, in which
case the debtor may permanently keep the cash, see In
re DeBerry, 884 F.3d 526, 529-530 (5th Cir. 2018). This
case, DeBerry, and Jacobson all arise on that posture, so
the circuits are divided 2-1 under the facts here.
Accordingly, although the Constitution provides that
bankruptcy laws shall be “uniform” nationwide, U.S.
Const. Art. I, § 8, cl. 4, the rule is now disuniform: States

4
in the Ninth Circuit have powers over bankruptcy that
States in the First Circuit lack. A debtor in Portland,
Maine, can shield the proceeds even after the state-law
exemption has expired, but a debtor in Portland, Oregon, cannot. And a debtor in Portland, Texas, might (or
might) not be able to do so, depending on whether it is a
Chapter 7 or 13 case and when the sale occurred.
The issue is particularly important in individual
bankruptcies. Hundreds of thousands of people file for
bankruptcy each year and a home is often their most
valuable asset. The issue also arises nationwide: Virtually all States have homestead exemptions, which usually expire either (1) upon the sale of the house; or (2) if
the debtor sells the house but fails to timely reinvest the
proceeds. This issue in turn frequently arises in the
bankruptcy courts, and courts and commentators have
both emphasized its importance. The more fundamental
question of whether state-law exemptions can cease to
apply because of post-petition developments also recurs
in many other contexts, and cannot be limited just to
homes. See, e.g., In re Hawk, 871 F.3d 287, 296 (5th Cir.
2017) (failure to timely reinvest IRA in accord with applicable state law).
The First Circuit’s decision is wrong. Section 522(b)
allows the debtor to exempt “any property that is exempt under … State or local law that is applicable on
the date of the filing of the petition.” 11 U.S.C.
522(b)(3)(A). That provision, by its plain terms, incorporates the “entire state law applicable on the filing date,”
which may “include[] a reinvestment requirement for
the debtor’s share of the homestead sale proceeds.” Jacobson, 676 F.3d at 1199 (citation omitted). The debtor
must “take the fat with the lean; he has signed on to the
rights … but also to the limitations … integral in those

5
exemptions as well.” Zibman, 268 F.3d at 304. The
debtor thus cannot freeze into place an exemption that
evaporates under state law. And the federal exemption
scheme confirms the point: A debtor may exempt an IRA
rollover distribution, but the proceeds “cease to qualify
for exemption” if they are not reinvested into another
IRA within 60 days. 11 U.S.C. 522(b)(4)(D). The same
basic rule applies here: When a debtor fails to timely reinvest proceeds from the sale of a home, the funds “cease
to qualify” for the homestead exemption. Ibid.
The First Circuit’s rule also undermines the purposes of both Section 522(b) and the underlying statelaw exemptions. In Section 522(b), Congress made a remarkable nod to federalism, delegating to the States virtually complete control over how to strike the appropriate balance between the interests of debtors and the
rights of creditors in this arena. Most States have homestead exemptions that protect home ownership and allow a debtor to move to a new home, but are subject to
the common-sense limitation that the exemption expires if the debtor does not reinvest the proceeds and instead simply keeps them as cash. Yet the First Circuit’s
rule deprives States of the ability to enforce those common-sense limitations, protects as a “homestead” money
that is no longer part of any “homestead,” and upsets
the balance that most States have struck.
Finally, this is a perfect vehicle for resolving the
question presented. It is the only question in this case,
it was squarely decided below, and it is outcome determinative. Certiorari is warranted.
A. State Homestead Exemptions

Forty-eight States and the District of Columbia have
“homestead” exemptions that protect a residence from

6
attachment and execution. Victor D. López, State Homestead Exemptions and Bankruptcy Law: Is it Time for
Congress to Close the Loophole?, 7 Rutgers Bus. L. J.
143, 149-165 (2010). While a handful of States exempt
the entire property with no cap, e.g., Fla. Const. Art. 10,
§ 4, the overwhelming majority exempt an interest in
the home, up to a maximum dollar value, e.g., Me. Rev.
Stat. tit. 14 § 4422. The exempt amounts are relatively
large. E.g., Wis. Stat. § 815.20(1) ($75,000). The purpose
is to “encourage home ownership,” George L. Haskins,
Homestead Exemptions, 63 Harv. L. Rev. 1289, 1290
(1950) (Haskins), and “secure a place of residence
against financial disaster,” In re England, 975 F.2d
1168, 1174 (5th Cir. 1992).
In a handful of States, the homestead exemption expires the moment a debtor voluntarily sells the home.
See, e.g., Walbridge v. Estate of Beaudoin, 48 A.3d 964
(N.H. 2012). But nearly all states have reinvestment requirements, either by statute or judicial decision.1 Rein-

See Colo. Rev. Stat. § 38-41-207 (two-year window); Wis. Stat.
§ 815.20(1) (same); Mont. Code Ann., § 70-32-213 (18 months); Ariz.
Rev. Stat. § 33-1101(C) (same); Idaho Code § 55-1008 (one year); 735
Ill. Comp. Stat. 5/12-906 (same); Mass. Gen. Laws ch. 188, § 11(a)(1)
(same); Minn. Stat. § 510.07 (same); N.Y. C.P.L.R. § 5206(1)(e)
(same); N.D. Cent. Code § 47-18-16 (same); Or. Rev. Stat. § 18.395(2)
(same); S.D. Codified Laws § 43-45-3 (same); Utah Code Ann. § 7823-3(5)(b) (same); Wash. Rev. Code § 6.13.070(1) (same); Me. Rev.
Stat. tit. 14 § 4422(1)(C) (six months); Cal. Civ. Proc. Code
§ 704.720(b) (same); Haw. Rev. Stat. § 651-96 (same); Neb. Rev. Stat.
§ 40-113 (same); Tex. Prop. Code Ann. § 41.001(c) (same); Nev. Rev.
Stat. § 115.055 (45 days to identify and 180 days to take possession);
Millsap v. Faulkes, 20 N.W. 2d 40, 41 (1945) (“a reasonable time”);
see also Exchange Bank & Tr. Co. v. Mathews, 591 S.W. 2d 354, 355
(Ark. Ct. App. 1979) (same); Int’l Harvester Credit Corp. v. Ross, 538
P.2d 655, 658 (Kan. 1975) (same); Harrell v. Bank of Wilson, 445
1

7
vestment rules allow a debtor to sell their home, buy another one, and keep the exemption—but only if the
debtor uses the proceeds to buy the new home within a
defined period of time. Those rules offer the debtor a
bridge to a new home, while ensuring that the proceeds
are not merely kept as cash for the debtor to spend at
will. See Haskins 1296-1297.
States treat cash very differently. While some have
“wildcard” exemptions that can cover liquid cash, those
exemptions are subject to much lower dollar caps. See
Bankruptcy: The Next Twenty Years, National Bankruptcy Review Commission Final Report 135 (1997);
e.g., Ohio Rev. Code Ann. § 2329.66(A)(3) ($400 cap).
Hence, outside of bankruptcy, if a debtor sells a home
but fails to timely reinvest the proceeds, the homestead
exemption ceases to apply and all (or virtually all) of the
proceeds become subject to attachment and execution.
The question presented is whether that result is different within bankruptcy than without.
B. Exemptions Inside Bankruptcy

The filing of a bankruptcy petition creates an “estate.” 11 U.S.C. 541. The estate includes, among other
things, all of the debtor’s “legal or equitable interests …
as of the commencement of the case,” “[p]roceeds” of the
sale of property of the estate, and “[a]ny interest in property that the estate acquires after the commencement of
the case.” 11 U.S.C. 541(a)(1), (6), (7). Section 541(b)
specifies certain property the estate “does not include.”

P.2d 266, 269-270 (Okla. 1968) (same); Orange Brevard Plumbing
& Heating Co. v. La Croix, 137 So.2d 201, 206 (Fla. 1962) (same);
Marcum v. Edwards, 205 S.W. 798, 799-800 (Ct. App. Ky. 1918)
(same); see also Va. Code Ann. § 34-8; Iowa Code § 561.20.

8
See, e.g., 11 U.S.C. 541(b)(5) (“funds placed in an education individual retirement account”). None of those exclusions are relevant here.
The Code then “authorizes a debtor to ‘exempt’ …
certain kinds of property from the estate, enabling him
to retain those assets post-bankruptcy.” Law v. Siegel,
571 U.S. 415, 417 (2014) (quoting 11 U.S.C. 522(b)). The
Code articulates a default scheme with twelve defined
exemption categories. 11 U.S.C. 522(d)(1). Among others, there is a homestead exemption (without an express
reinvestment rule). 11 U.S.C. 522(d)(1)-(12). There is
also an exemption for an IRA rollover distribution,
which “shall not cease to qualify for exemption” if the
funds are reinvested into another IRA within 60 days.
11 U.S.C. 522(b)(4)(D).
A debtor also may exempt “any property that is exempt under … State or local law that is applicable on
the date of the filing of the petition.” 11 U.S.C.
522(b)(3)(A). By default, a debtor thus may use either
state or federal exemptions. But the Code further allows
States to opt out of the default federal scheme, and thus
make available to debtors only the state-law exemptions
(subject to several narrow exceptions). 11 U.S.C.
522(b)(1). States thus enjoy virtually unbridled authority to determine what exemptions are available and to
establish their metes and bounds. See Owen v. Owen,
500 U.S. 305, 308 (1991) (States “could theoretically”
eliminate all exemptions). Most States have exercised
that authority by choosing to opt out of the default federal scheme. 4 Collier on Bankruptcy ¶ 522.01 n.2 (16th
ed. 2020) (identifying 31 States that have opted out).
Subject to narrow exceptions, the general rule is that
“property exempted under [Section 522] is not liable
during or after the case for any debt of the debtor that

9
arose … before the commencement of the case.” 11
U.S.C. 522(c). A discharge order at the end of the case
then discharges the debtor’s prepetition debts. See 11
U.S.C. 727 (Chapter 7); 11 U.S.C. 1328 (Chapter 13).
C. Factual Background

Respondent Jeffery J. Rockwell is a resident of the
State of Maine. On August 19, 2015, he filed a petition
for bankruptcy under Chapter 13. App. 2a. Maine has a
typical exemption scheme, with a homestead exception
capped at $47,500 and a six-month reinvestment window. Me. Rev. Stat. tit. 14, § 4422(1). At the time, respondent owned and resided in a home in South Portland. He claimed a homestead exemption for the maximum amount. App. 3a.
On March 6, 2017, with the bankruptcy court’s permission, respondent sold his house for $160,000, with
$51,682.87 in proceeds after paying off the mortgage
and closing costs. App. 3a. Respondent did not, however,
make any apparent effort to buy a new home. Rather,
over the next several months, he spent a substantial
portion of the proceeds, leaving $28,693.77 behind. Id.
at 3a-4a. Maine’s “wildcard” exemption for cash is
merely $400. App. 23a; see Me. Rev. Stat. tit. 14,
§ 4422(15).
On August 7, 2017, respondent converted his Chapter 13 bankruptcy to a case under Chapter 7. Chapter
13 “allows a debtor to retain his property if he proposes,
and gains court confirmation of, a plan to repay his
debts over a three- to five-year period.” Harris v. Veigelahn, 135 S. Ct. 1829, 1835 (2015). Recognizing that
most debtors fail to “complete a Chapter 13 plan successfully,” “Congress accorded debtors a nonwaivable
right to convert a Chapter 13 case to one under Chapter

10
7 ‘at any time.’” Ibid. (quoting 11 U.S.C. 1307(a)). Chapter 7 provides for the outright liquidation of the debtor’s
assets and the distribution to creditors. See ibid. After
conversion, the estate is determined “as of the date of
filing of the [initial Chapter 13] petition.” Id. at 1837
(quoting 11 U.S.C. 348(f)) (alterations in Harris).
The bankruptcy court appointed petitioner Nathaniel Richard Hull (Trustee), as the Chapter 7 trustee
to oversee the liquidation process. App. 4a, 51a. The sixmonth reinvestment window expired on September 3,
2017. The Trustee filed an objection to respondent’s use
of the homestead funds, contending that, once Maine’s
six-month reinvestment period expired, the remaining
proceeds ceased to be exempt and became available for
distribution to creditors. Id. at 4a, 48a-49a.
D. Procedural History

1. The bankruptcy court held a trial and, on August
23, 2018, issued an order overruling the Trustee’s objection. App. 45a-46a. The bankruptcy court held that the
exemption continued to apply inside bankruptcy notwithstanding that the reinvestment window had expired. The decisive choice, the court explained, was between what it termed the “complete snap-shot” rule—
which considers only whether the property was, in fact,
exempt “as of the filing date”—and the “partial snapshot” rule, which instead takes a snapshot of the applicable state law and then allows for consideration of postpetition events that are relevant under state law. Id. at
54a-57a. Believing that “either [approach] is viable and
both have flaws,” the bankruptcy court concluded that
the “complete snap-shot” view fit best with circuit precedent and the Code’s general goal of providing honest
debtors a “fresh start.” Id. at 57a & n.11, 61a.

11
2. The Trustee appealed and the district court affirmed. App. 19a-21a. The district court, too, believed
there were “persuasive arguments for either position,”
and noted that “the Fifth and Ninth Circuits have both
held sale proceeds not reinvested within the applicable
statutory periods … subsequently los[e] their exempt
status post-petition.” Id. at 20a, 35a. But it relied on
“fresh start principles” to reach a contrary conclusion.
Id. at 42a-43a (citation omitted).
3. The Trustee appealed and the court of appeals affirmed. The First Circuit “wrestl[ed] with … whether to
apply the partial or complete snapshot rule,” but ultimately opted for the latter. App. 10a. It acknowledged
“that other circuits that have addressed similar questions have reached a result that is (or seems) at odds
with the result we reach here,” citing the Ninth Circuit’s
decision in Jacobson and the Fifth Circuit’s decision in
Frost. Id. at 15a-16a. But the court “f[ou]nd these cases
unpersuasive.” Id. at 16a.
REASONS FOR GRANTING THE PETITION

The court of appeals below adopted the “complete
snapshot” rule under which bankruptcy exemptions are
determined “on the day [the debtor] files for bankruptcy
without considering any developments after that date
(as if someone took a snapshot of the situation, leaving
it frozen in time).” App. 4a. Under that approach, property remains exempt as a “homestead” even if the debtor
sells the home, fails to timely reinvest the proceeds, and
instead simply keeps the money as cash that would not
be exempt outside bankruptcy. As the court of appeals
recognized, that rule “is (or seems) at odds” with decisions of the Ninth and Fifth Circuits. Id. at 15a-16a. Indeed, there is nothing seeming about the conflict: The

12
Ninth Circuit has adopted the contrary “partial snapshot” rule and applied it to facts materially identical to
these, holding that state-law exemptions in bankruptcy
expire at the same time they would expire under applicable state law outside bankruptcy. And the Fifth Circuit has adopted an intermediary rule under which
state-law exemptions sometimes (but not always) expire, depending on the posture of the case.
The question presented frequently recurs and carries
considerable importance in individual bankruptcies.
Hundreds of thousands of people file for bankruptcy
each year, and a home is often the debtor’s most valuable asset. Moreover, in virtually all States, a homestead
exemption expires at the time of or some time after a
sale. The issue of whether the debtor can sell their home
and keep the money as cash, yet continue to treat the
cash as an exempt “homestead,” thus has a significant
impact on the balance of interests between creditors and
debtors. See Clark v. Rameker, 573 U.S. 122, 129 (2014).
The court of appeals’ decision is also wrong. The Code
exempts property that “is exempt” under the state law
that “is applicable on the date of the filing of the petition.” 11 U.S.C. 522(b)(1) and (3)(A). Once the property
ceases to qualify as exempt under the state-law exemption that applied on the date of the filing of the petition,
then that property no longer “is exempt” and the bankruptcy exemption ceases to apply as well. The court of
appeals reached a contrary result by pointing to “fresh
start” principles. App. 16a. But the Code balances the
debtor’s interest in obtaining a fresh start against creditors’ interests in obtaining a recovery, and in particular
the Code delegates to States the authority to strike the
appropriate balance for exempted property. There is no

13
sound basis for preventing States from allowing creditors to recover against cash once it is no longer being
used for the purpose of home ownership. Finally, this is
an ideal vehicle, as the question is squarely presented
and outcome determinative. Certiorari is warranted.
I. The Circuits Are Divided On The Question Presented

The circuits are squarely divided on the question presented, with three circuits articulating different rules of
law and reaching conflicting results on materially identical facts. The Ninth Circuit holds that reinvestment
requirements operate inside bankruptcy the same way
they operate outside bankruptcy: The debtor loses his
state-law homestead exemption whenever he or she
fails to reinvest within the applicable state-law window.
The Fifth Circuit has held that they sometimes (but not
always) operate the same way: a debtor loses the exemption in a Chapter 13 case when it expires under state
law, and in a Chapter 7 case when it expires after a prepetition sale, but not when it is a Chapter 7 case and
expires after a post-petition sale. At the other end of the
spectrum, the First Circuit below adopted the “complete
snapshot rule,” under which state-law exemptions never
expire inside bankruptcy. There is accordingly a threeway split on how to decide the question presented, dividing either 2-1 or 1-2 depending on whether it is a
post-petition sale in a Chapter 7 case (as here) or instead an individual bankruptcy on any other posture.
1. The Ninth Circuit has squarely held that state reinvestment requirements are enforceable in bankruptcy. See In re Jacobson, 676 F.3d 1193, 1199 (2012);
In re Golden, 789 F.2d 698, 700 (1986). Golden applied
California’s reinvestment requirement to proceeds from
a debtor’s pre-petition sale of his homestead. Id. at 699
& n.1. Failure to enforce the reinvestment requirement,

14
the court explained, would not only “frustrate the objective of the California homestead exemption,” but also
“the bankruptcy act itself, which limits exemptions to
that provided by state or federal law.” Id. at 700.
In Jacobson, the Ninth Circuit applied that rule to
facts materially indistinguishable from those here. As
here, a debtor proceeding under Chapter 7 failed to
timely reinvest proceeds following a post-petition sale,
and the Ninth Circuit determined that the exemption
ceased to apply. See 676 F.3d at 1199. The court
stressed that “the entire state law applicable on the filing date,” including the reinvestment requirement, determines the debtor’s right to an exemption. Ibid. (citation omitted). The debtor’s post-petition failure to abide
the reinvestment requirement was therefore “determinative.” Ibid.
Jacobson drew heavily on Myers v. Matley, 318 U.S.
622 (1943), which similarly considered the relationship
between bankruptcy and state homestead requirements. Under the Nevada law at issue, homeowners
could file a declaration to perfect their homestead exemptions right up until the moment of sale. Id. at 626628. The debtor made that declaration pre-sale but postpetition, and the question was whether that post-petition compliance with state law made the debtor qualify
for the exemption in bankruptcy. Ibid.
Myers said yes. As the Ninth Circuit explained, this
Court “looked at the whole Nevada homestead exemption, which provided that a debtor could file a homestead declaration at any time before a judicial sale. Jacobson, 676 F.3d at 1199 (emphasis added) “[I]t did not
matter that the homestead was not exempt when the
bankruptcy petition was filed.” Ibid. Consistent with

15
Myers, the Ninth Circuit declined “to read out the reinvestment requirement from the homestead exemption,”
where “[n]othing in [the text] limit[ed] [California’s]
power to” condition the exemption on the debtor’s postpetition reinvestment. Id. at 1200 (quoting Owen v.
Owen, 500 U.S. 305, 308 (1991)).
2. The Fifth Circuit agrees with the Ninth Circuit
(but disagrees with the First Circuit) that a state-law
exemption can cease to apply in bankruptcy if the debtor
fails to timely reinvest the proceeds, but it applies a different rule if it is a post-petition sale in a Chapter 7 case.
The Fifth Circuit initially held that that when a
Chapter 7 debtor fails to timely reinvest the proceeds
from a pre-petition sale of the homestead, “the exemption on the[] proceeds evanesce[s] by operation of law.”
In re Zibman, 268 F.3d 298, 305 (5th Cir. 2001). Like
the Ninth Circuit, the Fifth Circuit read Myers to mean
that “the entire state law applicable on the filing date,”
including the reinvestment requirement, “is determinative.” Id. at 304. “When a debtor elects to avail himself
of the exemptions the state provides,” the court explained, “he agrees to take the fat with the lean; he has
signed on to the rights (like the post-petition right to file
in Myers) but also to the limitations (like the temporal
element of the reinvestment feature of California’s
homestead exemption in Golden) integral in those exemptions as well.” Ibid. It thus would “transgress” Myers’ teaching to “read the 6-month limitation out of the
[reinvestment requirement], and transform an explicitly limited exemption into a permanent one.” Ibid.
The Fifth Circuit has since applied Zibman to a
Chapter 13 debtor’s post-petition sale of the homestead.
See In re Frost, 744 F.3d 384, 388 (5th Cir. 2014). The
court explained that any “temporal distinction” between

16
a pre- and post-petition sale was “insufficient to escape”
Zibman and Myers. Id. at 388 & n.2.
More recently, however, the Fifth Circuit carved out
an exception for cases (like this one and Jacobson) in
which there a post-petition sale and the debtor is proceeding under Chapter 7. First, in In re Hawk, 871 F.3d
287, 296 (5th Cir. 2017), the court held that a debtor who
withdrew funds from an IRA post-petition did not have
to comply with Texas’s IRA reinvestment requirement
within bankruptcy. See Tex. Prop. Code Ann. § 42.0021(a),
(c) (60-day reinvestment requirement for IRA rollovers).
Hawk distinguished Frost as involving Chapter 13, and
distinguished Zibman as involving a pre-petition sale.
See Hawk, 871 F.3d at 296.2 The Fifth Circuit later extended Hawk from IRAs to homes, concluding that a
Chapter 7 debtor keeps his homestead permanently exempt from bankruptcy creditors after a post-petition
sale, even if he fails to reinvest the proceeds and instead
simply keeps them as cash. See In re DeBerry, 884 F.3d
526, 529 (5th Cir. 2018).
3. The First Circuit below adopted the “complete
snapshot rule,” holding that exemptions are set in stone
at the start of the bankruptcy, even when subsequent
developments mean that the property no longer qualifies as exempt under applicable state law. App. 13a. The
court of appeals recognized that its decision put it “at
odds” with the Ninth Circuit’s decision in Jacobson and
the Fifth Circuit’s decision in Frost. App. 15a. But it

Frost had rejected that very “temporal distinction” between preand post-petition sales. 744 F.3d at 388. Initially, the Hawk panel
followed Frost and Zibman, see Hawk, 864 F.3d 364 (2017), but it
granted rehearing, reached a contrary conclusion, and withdrew the
prior panel opinion, 871 F.3d 287.
2

17
found those decisions “unpersuasive.” Id. at 16a.3 The
court instead concluded that a “homestead exemption
taken on the day he filed for bankruptcy must be viewed
as unchanging, even in the face of [a] later sale of the
property.” Id. at 11a.
There is accordingly a three-way split over whether
homestead exemptions expire inside bankruptcy when
a debtor sells the home and fails to timely reinvest the
proceeds: The circuits divide 2-1 over whether they can
ever expire and 1-2 over whether they expire where, as
here, it is a post-petition sale and a Chapter 7 case.
II. The Question Presented is Recurring and Important

The question presented recurs frequently and is particularly important in individual bankruptcies. According to published statistics, in each of the last ten years,
more than 750,000 people filed for bankruptcy. American Bankruptcy Inst., Annual Business and Non-business Filings by Year (1980-2019). Studies have found
that a substantial portion of debtors are homeowners.
See Jonathan D. Fisher, Who Files for Personal Bankruptcy in the United States, 53 J. Consumer Aff. 2003,
2014 (2019) (finding based on 2000 census data that
62.9% of Chapter 7 debtors and 79.2% of Chapter 13
The First Circuit found Frost and Jacobson unpersuasive in part
because the Fifth and Ninth Circuits had not “addresse[d] the
Code’s valued ‘fresh start’ principles as articulated in Harris” or this
Court’s “admonishments” in Law v. Siegel, 571 U.S. 415, that courts
should “reach the result required by the text of the Bankruptcy
Code.” App. 16a. But there is nothing novel about those statements
in Harris and Law. This Court has long recognized “the general
‘fresh start’ policy that undergirds the Bankruptcy Code,” e.g.,
Grogan v. Garner, 498 U.S. 279, 283 (1991), and emphasized that
clear statutory text in the Code controls, e.g., Hartford Underwriters
Ins. Co. v. Union Planters Bank, N.A., 530 U.S. 1, 6 (2000) (Scalia, J.).
3

18
debtors were homeowners, and deriving a similar 69.4%
and 83.9%, respectively, from the 2008-2009 American
Community Surveys). And studies have shown that
home equity is often a person’s most valuable asset. See
Teresa A. Sullivan, et al., The Fragile Middle Class:
Americans in Debt 219 nn. 71, 73 (2000) (noting that
homeowners “have more value tied up in home equities
than in savings accounts and certificates of deposit,
stocks and mutual funds, cars, retirement accounts, and
other real estate combined.”).
Myriad bankruptcy courts have decided the issue,
with sharply divergent results. Many have enforced reinvestment requirements in bankruptcy. See, e.g., In re
Dudley, 617 B.R. 149 (Bankr. E.D. Cal. 2020); In re
Binesh, 542 B.R. 1, 4-5 (Bankr. C.D. Cal. 2015); In re
Smith, 526 B.R. 343, 349 (D. Ariz. 2015) (enforcing Arizona’s reinvestment requirement in bankruptcy); In re
Konnoff, 356 B.R. 201, 208 (B.A.P. 9th Cir. 2006) (same);
Gaughan v. Smith, 342 B.R. 801, 808-809 (B.A.P. 9th
Cir. 2006) (same); In re Foreacre, 358 B.R. 384, 393
(Bankr. D. Ariz. 2006) (same); In re Marriott, 427 B.R.
887, 893 (Bankr. D. Idaho 2010) (enforcing Idaho’s reinvestment requirement); In re Cerchione, 398 B.R. 699,
708 (Bankr. D. Idaho) (same), aff’d, 414 B.R. 540 (B.A.P.
9th Cir. 2009); In re Winchester, 46 B.R. 492 (B.A.P. 9th
Cir. 1984) (enforcing Oregon’s reinvestment requirement), superseded by statute on other grounds, 11 U.S.C.
348(f)(1)(A); In re Earnest, 42 B.R. 395, 399 (Bankr. D.
Or. 1984) (same); cf. also In re Stewart, 452 B.R. 726,
742 (C.D. Ill. 2011) (enforcing Illinois’ reinvestment requirement); In re Williams, 515 B.R. 395, 410 (Bankr.
D. Mass. 2014) (enforcing Massachusetts’ reinvestment
requirement). Others have not. See, e.g., In re Awayda,

19
574 B.R. 692, 701 (Bankr. C.D. Ill. 2017) (Illinois’ reinvestment requirement unenforceable); In re Lantz, 446
B.R. 850, 858 (Bankr. N.D. Ill. 2011) (same); In re Snowden, 386 B.R. 730, 734 (Bankr. C.D. Ill. 2008) (same); In
re Thomas, BKY 17-43661-MER, 2018 WL 3655654,
(Bankr. D. Minn. July 31, 2018) (same under Minnesota
law); In re Ward, 595 B.R. 127, 131-132 (Bankr.
E.D.N.Y. 2018) (same under New York law); In re Bellafiore, 492 B.R. 109, 115-116 (Bankr. E.D.N.Y. 2013); In
re Bedell, 173 B.R. 463, 466 (Bankr. W.D.N.Y. 1994)
(same); In re Reed, 184 B.R. 733, 738 (Bankr. W.D. Tex.
1995) (same under Texas law).
The question presented also has broader importance
because homes are the tip of the iceberg. The more fundamental question is whether an exemption that applies at the start of a bankruptcy can expire and thus
cease to apply later in the bankruptcy. Under the “complete snapshot” rule, the answer is no; under the “partial snapshot” rule, the answer is yes. And the answer
hinges on statutory language in Section 522, which is
worded in general terms and is not specific to homes.
See 11 U.S.C. 522(b)(1) and (3) (exempting “any property that is exempt” under applicable state or local law).
This same interpretative question accordingly arises
for a host of other exemptions. For example, the Fifth
Circuit’s decision in Hawk involved a debtor that sold
an exempted Texas IRA but failed to reinvest the proceeds within the required state-law window. See 871
F.3d at 291 (noting the “clear parallels between the
Texas statutes governing retirement accounts and those
governing homesteads,” and relying on homestead decisions to decide the IRA question). Similarly, there is a
divide among the lower courts (albeit not the circuit
courts) on whether statutes “exempting vehicles or ‘tools

20
of the trade,’ should be interpreted to protect the proceeds” from a post-petition sale. In re Meeks, Bankr. No.
05-21952, 2006 WL 4458354, at *4 (Bankr. N.D. Ohio
2006) (collecting cases).
Those other questions rarely make their way to the
courts of appeals, but when they do, they often breed
disagreement. Compare In re Patterson, 825 F.2d 1140,
1145 (7th Cir. 1987) (“If [during bankruptcy] the debtor
decides to leave his trade and he therefore sells his tools,
we doubt whether he can prevent the liens from attaching to the proceeds.”), with In re Burciaga, 944 F.3d 681,
685 (7th Cir. 2019) (“That a car may be sold while bankruptcy is under way does not make all of the proceeds
available to satisfy pre-bankruptcy claims; the debtor
retains any exempted amount.”). Resolution of the question presented thus would resolve not only the specific
circuit conflict here, but also the broader confusion in
the lower courts on substantially similar issues.
The question presented is more fundamentally important because it implicates significant federalism concerns. Congress has long recognized that States should
play a primary role in striking the appropriate balance
between the interests of debtors and creditors when deciding which property to exempt. See, e.g., Bankruptcy
Act of 1898, § 6, 30 Stat. 544, 548. And States have long
adopted “homestead” exemptions with reinvestment requirements. See Exemption of Proceeds of Voluntary
Sale of Homestead, 1 A.L.R. 483. Section 522 in turn extends a remarkable degree of deference to state law, empowering States not merely to establish their own exemptions but also to “opt out” of the federal exemption
scheme and thus define entirely for themselves the exemptions available to in-state debtors. The First Circuit’s rule, however, deprives States of the ability to set

21
the balance they find appropriate, and in particular prevents States from determining that property should no
longer be exempted as a “homestead” when the debtor
has sold the home and kept the proceeds as cash rather
than buying a new one.
Courts and commentators have both recognized the
importance of this specific issue about homesteads (and
the broader issue of expiring exemptions) to debtors and
creditors alike. See Br. of Christopher G. Bradley et al.
as Amici Curiae 3, in Hawk, supra, No. 16-20641 (5th
Cir. Aug. 14, 2017) (“The significance of this case cannot
be overstated. It will affect every individual Chapter 7
bankruptcy case—more than 12,500 last year in Texas
alone.”); Danielle Nicole Rushing, Use It or Lose It:
Grappling with Classification of Post-Petition Sale Proceeds Under Chapter Seven Bankruptcy, 47 St. Mary’s
L. J. 901, 917 (2016) (“[T]he characterization of the proceeds of a potential post-petition sale is of great importance.”); In re Bencomo, No. 15-1442, 2016 WL
4203918, at *7 (B.A.P. 9th Cir. Aug. 8, 2016) (Golden is
a “seminal decision” of bankruptcy law).
III. The Decision Below is Erroneous

The First Circuit’s “complete snapshot” rule is incompatible with Section 522’s text, structure, and purposes.
1. Section 522(b) provides that a debtor “may exempt from property of the estate … any property that is
exempt under … State or local law that is applicable on
the date of the filing of the petition.” 11 U.S.C. 522(b)(1)
and (3)(A). “When a debtor claims a state-created exemption, the exemption’s scope is determined by state law.”
Law, 571 U.S. at 425; see Owen, 500 U.S. at 308 (States’
authority to define exemptions are subject only to those
“competing or limiting policies the statute contains”).

22
When a debtor sells a home and the reinvestment window expires, that property no longer “is exempt” under
state law, and the debtor may no longer “exempt it from
property of the estate.” The bankruptcy exemption accordingly ceases to apply as well.
The First Circuit’s “complete snapshot” approach
preempts reinvestment requirements by taking a static
picture of whether, in fact, the property was exempt at
the moment the petition was filed. But Section 522, by
its plain terms, takes a different picture: Debtors may
exempt “any property that is exempt under … State or
local law that is applicable on the date of the filing of the
petition.” 11 U.S.C. 522(b)(3)(A). That is, the snapshot
is of the “entire state law applicable on the filing date,”
including any limitations and conditions like “reinvestment requirement[s].” Jacobson, 676 F.3d at 1199. The
operative question is whether that property still “is exempt” under that applicable law. See 1 U.S.C. 1 (“words
used in the present tense include the future” “unless the
context indicates otherwise”). If the answer is yes, it is
exempt. If the answer becomes no because the reinvestment window has expired (or the debtor has otherwise
failed to comply with a condition subsequent), then the
bankruptcy exemption expires. Nothing in the Code creates blinders that prevent courts from looking at anything other than the facts at the moment of filing.
The list of federal exemptions reinforces the point.
The Code generally makes IRAs exempt, and provides
that a “rollover distribution” from one IRA to another
“shall not cease to qualify for exemption” if “deposited in
[a tax-exempt] fund or account not later than 60 days
after the distribution of such amount.” 11 U.S.C.
522(b)(4)(D). If the debtor fails to reinvest within the 60day window—even if that window closes during the

23
bankruptcy case—the post-petition distribution thus
will “cease to qualify” for the exemption. See In re
Brown, 614 B.R. 416, 426 (B.A.P. 1st Cir. 2020). And
nothing in the Code suggests that every other exemption is inherently permanent except for that one. Rather, given the “equivalency of treatment accorded to
federal and state exemptions,” the Code is properly understood to allow States the same leeway to impose reinvestment requirements. See Owen, 500 U.S. at 313.
2. The Code’s structure similarly supports the view
that exemptions can expire. Under the modern Code,
the contours of the estate “are not necessarily set in
stone, but rather can and do expand and contract based
on postpetition events.” In re Northington, 876 F.3d
1302, 1314 & n.9 (11th Cir. 2017). In defining what the
estate is “comprised of,” the Code includes “[p]roceeds”
of property of the estate, as well as “[a]ny interest in
property that the estate acquires after” commencement.” 11 U.S.C. 541(a)(6) and (7). Exemptions are similarly fluid: a debtor can amend his schedule of property
claimed as exempt “as a matter of course at any time
before the case is closed.” Fed. R. Bankr. P. 1009(a). And
a rollover can “cease to qualify for [the IRA] exemption”
if it is not timely reinvested. 11 U.S.C. 522(b)(4)(D).
Nothing in this structure suggests exemptions are permanently fixed the moment of a bankruptcy filing.
More broadly, in law and in life, exemptions are often
subject to conditions subsequent. A charity “cease[s] to
qualify for [a tax] exemption” if it drifts too far from its
charitable design, 26 U.S.C. 504, just as a conscientious
objector ceases to qualify for a draft “exempt[ion]” if he
abandons his religious convictions, 50 U.S.C. 3806(j),
(k). Bankruptcy exemptions work the same way.

24
3. Interpreting bankruptcy exemptions to cease to
apply when the underlying state-law exemption ceases
to apply also furthers the statutory purpose. Congress
authorized each State to define its own exemptions—
and to opt out of the federal scheme—to ensure that
debtors in bankruptcy ordinarily have the same rights
they would have outside bankruptcy. Cf. Mission Prod.
Holdings, Inc. v. Tempnology, LLC, 139 S. Ct. 1652, 16621663 (2019); Butner v. United States, 440 U.S. 48, 54-55
(1979). The First Circuit’s rule has the opposite effect,
however, “allow[ing] a debtor-in-bankruptcy to obtain
the liquidity of its homestead at a much earlier date—
and without the risk of exposing itself to creditors—than
a debtor who had not filed.” Frost, 744 F.3d at 389.
The decision below similarly thwarts the statutes’
underlying purposes. The purpose of homestead exemptions is to protect home ownership as something special.
Haskins 1289. Reinvestment provisions then offer the
debtor a bridge to move to a new home while retaining
that important protection. England, 975 F.3d at 1174.
But that state interest evaporates if the debtor sells the
home and treats the proceeds as “a pot of money [to] be
freely used for current consumption.” Clark, 573 U.S. at
128; Golden, 789 F.2d at 700. States instead generally
take the opposite rule for cash: all or virtually all cash
is subject to attachment or execution. See p. 7, supra.
Yet the First Circuit’s rule disregards both judgments
by permanently shielding an often large quantity of
cash from bankruptcy creditors notwithstanding that it
is no longer used for purposes of home ownership.
4. The First Circuit offered two principal arguments
for its contrary position. Neither holds up.
First, the court relied on the Code’s general purpose
of providing debtors a “fresh start.” App. 11a. But that

25
general purpose does not answer the interpretative
question, because the Code “does not permit anything
and everything that might advance that goal.” Mission
Product, 139 S. Ct. at 1665. Rather, the Code “strikes a
balance” between a debtor’s interest in obtaining a fresh
start and “the creditors’ interest in maximizing the
value of the bankruptcy estate” for their recovery. Florida Dep’t of Revenue v. Piccadilly Cafeterias, Inc., 554
U.S. 33, 51 (2008). Section 522 expressly delegates that
choice to the States in defining their own exemptions.
Indeed, Congress gave the States carte blanche to
eliminate exemptions entirely. See Owen, 500 U.S. at
308. There is no sound basis to believe that, in the same
breath, Congress denied the States the lesser authority
to grant a homestead exemption subject to the commonsense limitation that the debtor cannot sell the home
and permanently keep the proceeds as cash. At that
point, there is no longer a “homestead” to protect, which
is why state law typically “requires reinvestment in order to prevent the debtor from squandering the proceeds
for nonexempt purposes.” Jacobson, 676 F.3d at 1200
(quoting Golden, 789 F.2d at 700).
Second, the court of appeals drew a negative inference from Section 522(c)’s list of narrow kinds of debts
that may be enforced even against exempted property.
App. 11a; e.g., 11 U.S.C. 522(c)(1)-(2) (domestic support
obligations and tax liens). The court reasoned that, because Congress did not include reinvestment requirements on that list, they are categorically excluded by
negative implication. App. 11a.
That rationale is clearly wrong. Section 522(c) defines specific kinds of debts that can be enforced against
property even if it is exempt. Reinvestment requirements, by contrast, are rules for determining which

26
property is exempt in the first place. It accordingly
would have been incongruous for Congress to include reinvestment requirements within Section 522(c), and no
negative inference can be drawn from that omission.
IV. This Case Is An Ideal Vehicle

The court of appeals’ decision accordingly is wrong
and conflicts with decisions of other circuits on an important and recurring question of federal law. This case
also squarely tees up the issue for this Court’s review.
The First Circuit conclusively decided the question,
adopting the “complete snapshot” rule to hold that statelaw homestead exemptions remain applicable during
the entire bankruptcy. App. 11a. Indeed, that is the only
question on appeal, and all three courts below decided
it. Id. at 11a, 44a, 63a. The courts below also found that
respondent failed to comply with Maine’s reinvestment
requirement. Id. at 23a (“[C]ontrary to the express requirements of Maine’s homestead exemption, [respondent] did not spend any of the proceeds of the sale on the
purchase of a new residence.”). The only question is
whether that state-law exemption ceased to apply in
bankruptcy as well: If so, the court of appeals’ judgment
must be reversed. If not, it would be affirmed.
This case presents a relatively rare opportunity to decide the question. Although myriad bankruptcy courts
have decided this issue, see pp. 18-19, supra (collecting
cases), only a handful of cases have made it to the courts
of appeals: E.g., App. 1a; DeBerry, 884 F.3d at 529-530;
Jacobson, 676 F.3d at 1199; Frost, 744 F.3d 384; Golden,
789 F.2d 698. After all, parties in individual bankruptcy
cases typically lack the resources and incentives to push
through the multiple layers of review. See Troy A.
McKenzie, Judicial Independence, Autonomy and the
Bankruptcy Courts, 62 Stan. L. Rev. 747, 782 (2010).

27
This Court in turn has repeatedly granted certiorari in
bankruptcy cases with relatively shallow splits. See,
e.g., Mission Product, 139 S. Ct. at 1660 (granting certiorari to resolve a 1-1 split); Clark, 573 U.S. at 126-27
(same); Pet. 2, Harris, supra (No. 14-400), 2014 WL
5019859, at *2 (same). This Court’s review is warranted
to resolve the circuit conflict here as well.
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
NATHANIEL R. HULL
VERRILL DANA LLP
One Portland Square
Portland, ME 04101
(207) 253-4726

OCTOBER 2020

ZACHARY D. TRIPP
Counsel of Record
JOSHUA HALPERN
WEIL, GOTSHAL & MANGES LLP
2001 M Street NW
Washington, DC 20036
(202) 682-7000
zack.tripp@weil.com

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS FOR THE
FIRST CIRCUIT
————
No. 19-2074
————
IN RE JEFFREY J. ROCKWELL,
Debtor.

————

JEFFREY J. ROCKWELL,
Appellee,

v.

NATHANIEL RICHARD HULL,
————

Appellant.

Appeal from the United States District Court for the
District of Maine
[Hon. John A. Woodcock, Jr., U.S. District Judge]
————
Before
Thompson, Lipez, and Kayatta, Circuit Judges.
Nathaniel R. Hull and Verrill Dana LLP on brief for
the appellant.
Christopher J. Keach and Molleur Law Office on brief
for the appellee.
————
July 30, 2020
————

2a
THOMPSON, Circuit Judge. Jeffrey J. Rockwell
filed for Chapter 13 bankruptcy and exempted his home
from the bankruptcy estate under Maine’s homestead
law. Later, while the bankruptcy was still proceeding,
Rockwell sold that home, and, despite Maine’s law, did
not reinvest the proceeds of the sale in another homestead within six months. When he converted his bankruptcy to a Chapter 7 proceeding, Chapter 7 Trustee
Nathaniel Richard Hull objected to Rockwell’s homestead exemption. The bankruptcy court denied Hull’s
objection and the district court affirmed. Hull then
appealed to us. Holding that the Bankruptcy Code
dictates that Rockwell’s homestead exemption maintains the status it held on the day Rockwell filed his
bankruptcy petition, we affirm.
BACKGROUND

In 2001, Rockwell purchased property on B Street in
South Portland, Maine. He still owned that property
and was living there on August 19, 2015, when he filed
for Chapter 13 bankruptcy. As he was entitled to under
Maine law, 14 M.R.S. § 4422(1), Rockwell claimed a
homestead exemption for $47,500 of equity for the B
Street property.1 As part of his Chapter 13 reorganization plan, Rockwell proposed to pay the owner of the B
street mortgage (i.e., one of his creditors) directly from
his other assets and retain ownership and possession

A “homestead” is “[t]he house, outbuildings, and adjoining land
owned and occupied by a person or family as a residence.”
Homestead, Black’s Law Dictionary (11th ed. 2019). A “homestead
exemption” is a tool a debtor can use to protect his homestead (or,
depending on the state, a portion of the proceeds from the sale of it)
from creditors. See Homestead Law, Black’s Law Dictionary (11th
ed. 2019).
1

3a
of the property. The bankruptcy court confirmed
Rockwell’s Chapter 13 plan in November 2015.
By December 2016, Rockwell’s plans to retain the B
Street Property had changed. Specifically, he sought the
bankruptcy court’s permission to sell the property for
$160,000. Rockwell proposed that he would retain the
$47,500 allowed by Maine’s homestead exemption and
contribute the remaining, non-exempt proceeds to his
Chapter 13 reorganization plan. At the hearing on
Rockwell’s motion to sell the property, the Chapter 13
trustee expressed concern about Rockwell’s proposed
sale price, but nonetheless expected the court to grant
the motion.
The bankruptcy court granted Rockwell’s motion and
ordered him to use the money from the sale to pay the
closing costs and the mortgage. Rockwell was to pay any
remaining, non-exempt funds from the sale to the
Chapter 13 trustee to pay down Rockwell’s debt.
On March 6, 2017, Rockwell finalized the sale of the
B Street property. After paying the closing costs and the
lender, $51,682.87 was left. He kept $47,500 (his
homestead exemption as allowed by Maine law) and
paid the remaining $4,182.87 to the Chapter 13 trustee.
The Chapter 13 trustee did not object.
After the sale, Rockwell still lived at the B Street
property, but he planned to move into a home on
Bancroft Court, in Portland. Though Rockwell did not
own the Bancroft Court property, in the months after
the sale and prior to his move, he contributed to its
upkeep. Specifically, Rockwell spent $18,806.23 of his
homestead exemption on paint, tile, fuel oil, carpet,
plumbing, tree-cutting services, and other miscellaneous repairs and supplies, all for the Bancroft Court
property, and on moving expenses to move his own
belongings from the B Street property to the Bancroft

4a
Court property. Then, on August 7, 2017, Rockwell converted his Chapter 13 case to a Chapter 7 case. Rockwell
moved into the Bancroft Court property in September
2017 and continued to spend the money from his
homestead exemption on repairs and improvements to
the Bancroft Court property.
A few months later, the Chapter 7 trustee, Hull,
objected to Rockwell’s use of the homestead exemption.
Hull argued that Rockwell was no longer using the
exemption to protect his interest in a homestead
because he had not reinvested the proceeds of the sale
as required by Maine law. Therefore, from Hull’s
perspective, the previously protected money—
specifically, the $28,693.77 that Rockwell had not yet
spent when he converted his case to a Chapter 7 case—
should become part of the bankruptcy estate and be
used to pay off Rockwell’s creditors.2
From Rockwell’s point of view, he could take a
homestead exemption of up to $47,500 when he first
filed for bankruptcy in 2015 because he owned his
residence at the time. Rockwell argued that the
Bankruptcy Code and First Circuit precedent require
that the bankruptcy court apply the “complete
snapshot” rule, meaning the court evaluates Rockwell’s
affairs on the day he files for bankruptcy without
considering any developments after that date (as if
someone took a snapshot of the situation, leaving it
frozen in time) to determine if assets are properly
exempted from the bankruptcy estate.
The bankruptcy judge held a bench trial to resolve
Hull’s objection. The judge denied Hull’s objection, exPursuant to 11 U.S.C. § 348(f), the trustee could only seek the
$28,693.77 remaining at the time of conversion because there were
no allegations of bad faith in the conversion.
2

5a
plaining that “the complete snapshot view [of Rockwell’s
finances on the day he filed for bankruptcy] more
faithfully adhere[d] to the Code, First Circuit authority,
and the practicalities of administering a chapter 7 case.”
On September 4, 2018, Hull appealed to the United
States District Court for the District of Maine, which
affirmed the bankruptcy court’s decision. Hull filed a
timely appeal to this court on October 22, 2019.
For the reasons that follow, we now affirm.
OUR TAKE

Before turning to the merits of Hull’s appeal, we will
give the reader some context on the Bankruptcy Code
and law relevant to the instant litigation. When we
review a district court’s decision affirming a bankruptcy
court’s decision, as we do here, we review the
bankruptcy court’s decision directly. In re Sheedy, 801
F.3d 12, 18 (1st Cir. 2015). We review the bankruptcy
judge’s legal conclusions de novo and factual conclusions
for clear error. In re Goguen, 691 F.3d 62, 68 (1st Cir
2012).
A. The Bankruptcy Code Framework

When a debtor files for bankruptcy, his interests in
property are either compiled into the bankruptcy
“estate” from which (to the extent the estate can afford)
his creditors will be paid, or those interests are exempted from the estate for the debtor to keep. See 11
U.S.C. § 541. When the estate is created, a combination
of federal and state law determines which of the debtor’s
assets are exempted (and will remain safe from creditor
collection) and which belong to the estate (and will be
lost to the debtor). See id. § 522(b); Owen v. Owen, 500
U.S. 305, 306 (1991). “[F]ederal law provides no authority for bankruptcy courts to deny an exemption on a

6a
ground not specified in the Code.” Law v. Siegel, 571
U.S. 415, 425 (2014) (emphasis omitted).
Pursuant to 11 U.S.C. § 522(b)(3)(A), a debtor can
exempt from the bankruptcy estate any property
permitted by his state of residence. Among those
exemptions is an exemption commonly called a
“homestead exemption” which protects, to varying
extents, a debtor’s interest in their home. See
Homestead Law, Black’s Law Dictionary (11th ed.
2019). Maine, Rockwell’s state of residence, permits
debtors to protect their “aggregate interest, not to
exceed $47,500 in value, in real or personal property
that the debtor . . . uses as a residence.” 14 M.R.S. §
4422(1)(A).
Exemptions are determined at the time the debtor
files for bankruptcy. White v. Stump, 266 U.S. 310, 313
(1924); Myers v. Matley, 318 U.S. 622, 628 (1943) (“[T]he
bankrupt’s right to a homestead exemption becomes
fixed at the date of the filing of the petition in
bankruptcy . . . .”); In re Cunningham, 513 F.3d 318, 318
(1st Cir. 2008). This maxim is called the “snapshot” rule
because the debtor’s financial situation is frozen in time,
as if someone had taken a snapshot of it.3 In re Awayda,
574 B.R. 692, 697 (Bankr. C.D. Ill. 2017) (noting the
“snapshot rule [] controls the moment in time upon
which a debtor’s right to claim exemptions is based”).
When the snapshot rule applies to an asset and the
snapshot is “complete,” the asset will retain whatever
status (i.e., exempt or part of the estate) it had when the
Though we have rarely used the term “snapshot” in this circuit,
see In re Rudler, 576 F.3d 37, 50 (1st Cir. 2009), we have regularly
recognized the concept. See, e.g., In re Cunningham, 513 F.3d 318,
324 (1st Cir. 2008) (“[I]t is a basic principle of bankruptcy law that
exemptions are determined when a petition is filed.”).
3

7a
debtor filed for bankruptcy and cannot be altered by
circumstances that change later. See In re Williams, 515
B.R. 395, 401 (Bankr. D. Mass. 2014) (explaining that
the snapsnot rule “focus[es] on the facts and law as they
exist on the petition date”); see also In re Cunningham,
513 F.3d at 318. Other times, the snapshot is “incomplete,” meaning that the right circumstances could later
alter the status of that asset relative to the bankruptcy
estate, much like one can edit a snapshot after it has
been taken. See, e.g., 11 U.S.C. § 541(a)(5) (requiring
that up to 180 days after filing of the bankruptcy
petition, property that the debtor acquires by bequest,
devise, inheritance, divorce, life insurance, or death
benefit becomes part of the estate).
B. Chapter 13 and Chapter 7 Bankruptcy

Chapter 13 bankruptcy, the type of bankruptcy
Rockwell entered when he first filed in August of 2015,
is an entirely voluntary process. Harris v. Viegelahn,
135 S. Ct. 1829, 1835 (2015). During a Chapter 13
bankruptcy, a debtor contributes some of the income he
earns after filing to the estate. 11 U.S.C. § 1306. A
Chapter 13 debtor retains control of his property and
works out a plan with the court to use the money from
the estate to pay back his debt over three to five years.
Id. § 1322.
If a debtor proceeds under Chapter 7, the chapter to
which Rockwell converted his bankruptcy in 2017, all of
his assets, other than the ones exempted from the estate
per § 522, become a part of the estate. Id. § 541. The
Chapter 7 trustee then sells or otherwise disposes of the
debtor’s property and pays off creditors from the estate.
Id. §§ 704, 726. “Crucially, however, a Chapter 7 estate
does not include the wages a debtor earns or the assets

8a
he acquires after the bankruptcy filing.” Harris, 135 S.
Ct. at 1835 (emphasis in original).
A debtor may convert his bankruptcy from a Chapter
13 to a Chapter 7 proceeding at any time. 11 U.S.C.
§ 348. “Absent a bad-faith conversion, § 348(f) limits a
converted Chapter 7 estate to property belonging to the
debtor ‘as of the date’ the original Chapter 13 petition
was filed.” Harris, 135 S. Ct. at 1837.
C. Analysis of the Present Case
1. The Code Controls this Analysis

Having erected the applicable legal framework, we
now turn to the issue before us. No one disputes that on
the day Rockwell filed for bankruptcy, he properly
protected $47,500 of his property from the bankruptcy
estate by claiming Maine’s homestead exemption, 14
M.R.S. § 4422(1). No one disputes that Rockwell sold the
property and pocketed the $47,500 without spending it
on a new Maine homestead within six months of the
sale, which Maine law requires.4 The sole dispute is
whether that $47,500 (or what Rockwell didn’t spend of
it) lost its protection when Rockwell failed to reinvest in
a homestead within the six-month limitation and should
be available to pay creditors.
4 As detailed above, Rockwell continued to live at the B Street
property until September 2017, when he moved into the Bancroft
Court residence. No one disputes that he has no ownership interest
in this property or that Rockwell spent his B Street proceeds on
repairs and other care for the Bancroft Court property. Rockwell
argued to the bankruptcy court that this qualifies as investing in a
homestead under Maine law, so that money is still exempt from the
estate. The bankruptcy court did not resolve this argument because
it determined that the B Street proceeds were exempt, regardless of
how Rockwell later spent them. For the same reason, we do not
address that argument here.

9a
At the outset, we recognize that the Supreme Court
instructs that the rules of the Bankruptcy Code have the
first and final say, even where equity might demand a
different result. In Law v. Siegel, the Supreme Court
held that the bankruptcy court had improperly awarded
the value of the debtor’s homestead exemption to pay for
the Chapter 7 trustee’s administrative expenses, even
though the trustee generated those expenses solely
when responding to the debtor’s deliberate fraud. 571
U.S. at 422. The Court explained that the Bankruptcy
Code permits debtors to claim a homestead exemption
and for the value of that exemption to be protected from
paying, among other things, the administrative expenses of the estate. Id. The debtor in that case properly
claimed the homestead exemption and no one filed a
timely objection. Id. at 423. Despite the debtor’s postpetition conduct, which included submitting fraudulent
documents to the bankruptcy court in an effort to wrest
a share of the estate back to himself, and despite the fact
that this fraud directly caused the trustee to incur
approximately half a million dollars in legal fees, the
Code did not permit the bankruptcy court to make the
debtor’s homestead exemption available to defray those
legal fees. Id. at 418-22, 427-28 (explaining that the
bankruptcy court “may not contravene express provisions of the Bankruptcy Code by ordering that the
debtor’s exempt property be used to pay debts and
expenses for which that property is not liable under the
Code”). The bankruptcy court’s mandate, therefore, is to
“reach . . . an end result required by the Code.” Id. at
426.

10a
2. Exemptions are Analyzed on the date the Debtor
Files for Bankruptcy

With this framing in mind, we recognize that the
Code (which we know is supreme here) instructs that
the estate does not begin anew when a debtor converts
a Chapter 13 bankruptcy proceeding into a Chapter 7
proceeding. 11 U.S.C. § 348(a) (conversion from Chapter
13 to Chapter 7 “does not effect a change in the date of
the filing of the petition, the commencement of the case,
or the order for relief”). “[N]othing in the Code den[ies]
debtors funds that would have been theirs had the case
proceeded under Chapter 7 from the start.” Harris, 135
S. Ct. at 1838. So, without a doubt, we examine
Rockwell’s claim of a homestead exemption on the date
he filed for his Chapter 13 bankruptcy. As previously
noted, no one disputes that Rockwell properly claimed
Maine’s homestead exemption on that date.
3. The Complete Snapshot Rule Applies

Therefore, the final concept we must wrestle with is
whether to apply the partial or complete snapshot rule:
that is, we consider whether to examine Rockwell’s
claimed homestead exemption as unchanging, in accordance with the complete snapshot rule, or apply the
partial snapshot rule and afford Rockwell the homestead exemption only so far as he maintains his
homestead. Again, the Code answers this question for
us. “Property that is properly exempted under § 522 is
immunized against liability for prebankruptcy debts,
subject only to a few exceptions.” In re Cunningham,
513 F.3d at 323; accord 11 U.S.C. § 522(c)(1)-(3). The
Code enumerates those exceptions, where property that
is properly exempt on the day of filing (here, the day the
snapshot is taken) can be later incorporated into the
estate (because the snapshot was only partial and can

11a
therefore be edited). See 11 U.S.C. § 522(c). “Those
exceptions include: (1) debt from certain taxes and
customs duties, (2) debt related to domestic support
obligations, (3) liens that cannot be avoided or voided,
including tax liens, and (4) debts for a breach of
fiduciary duty to a federal depository institution.” In re
Cunningham, 513 F.3d at 323. Therefore, we must
conclude that the complete snapshot rule applies to
homestead exemptions taken pursuant to § 522, where
none of the statute’s enumerated exceptions applies.
None of these explicit exceptions applies to Rockwell’s
case, nor does Hull contend that one does, so Rockwell’s
homestead exemption taken on the day he filed for
bankruptcy must be viewed as unchanging, even in the
face of his later sale of the property.
This result lines up with the Code’s priority of
providing a “fresh start” for debtors. “[W]hile a Chapter
7 debtor must forfeit virtually all his prepetition
property, he is able to make a ‘fresh start’ by shielding
from creditors his postpetition earnings and acquisitions.” Harris, 135 S. Ct. at 1835. Debtors can best make
a fresh start where they can make healthy financial
choices moving forward, knowing what property is out
of the reach of the pre-petition creditors. Indeed,
“exemptions in bankruptcy cases are part and parcel of
the fundamental bankruptcy concept of a fresh start.”
Schwab v. Reilly, 560 U.S. 770, 791 (2010) (internal
quotation marks and citations omitted); accord In re
Cunningham, 513 F.3d at 324 (“The efficacy of the fresh
start policy requires finality that allows a debtor to
rebuild his life without fear of lingering creditors.”). “[A]
central purpose of the [Bankruptcy Code] is to provide a
procedure by which certain insolvent debtors can
reorder their affairs, make peace with their creditors,
and enjoy ‘a new opportunity in life with a clear field for

12a
future effort, unhampered by the pressure and discouragement of preexisting debt.’” Grogan v. Garner, 498
U.S. 279, 286 (1991) (quoting Local Loan Co. v. Hunt,
292 U.S. 234, 244 (1934)). By protecting Rockwell’s
exempt property, which was properly exempted on the
day of filing, from later being made available to
creditors, the bankruptcy court in this case supported
Rockwell in achieving the “fresh start” that the Code
prizes.
We addressed this aspect of the Code before in In re
Cunningham, involving a Chapter 7 filing, where we
considered “whether the post-petition sale of the
debtor’s home, for which he had obtained a homestead
exemption under the law of Massachusetts protecting it
from creditors, cause[d] the proceeds of the sale to lose
their exempt status under the Bankruptcy Code and
become subject to pre-petition, nondischargeable debt.”
In re Cunningham, 513 F.3d at 320. Cunningham, the
debtor in that case, had properly claimed a homestead
exemption under Massachusetts law. Later, he sold his
home, made approximately $150,000 from the sale, and
moved to Florida.5 Id. at 322. One of Cunningham’s
creditors moved to have the proceeds from the sale used
to satisfy Cunningham’s debt. Id. at 321-22. The creditor argued, similar to Hull’s argument here, that the
once-exempt interest in the homestead was proper at
the time Cunningham filed for bankruptcy, but once he
sold the property, it no longer enjoyed the protection of
Massachusetts’ homestead exemption and therefore
could be collected to satisfy Cunningham’s debts. Id. at
322. When analyzing that case, we noted that § 522(c)
5 The Massachusetts homestead exemption in place at the time did

not exempt proceeds recovered from a sale of the homestead. See In
re Cunningham, 513 F.3d at 321.

13a
has an “immunizing effect” on any exempt assets, other
than those explicitly excepted, and those exempt assets
are therefore exempt from pre-petition debt collection
during and after the bankruptcy. Id. at 323-24. Though
we did not address the rule by name, our approach in In
re Cunningham was compatible with the complete snapshot rule, when we held that because the exemption was
proper on the day Cunningham filed for bankruptcy,
Cunningham’s interest in that asset was “permanently
immuniz[ed]” from pre-petition debt collection, even if
he later sold that homestead. Id. at 322-325. Our
analysis does not differ here.
4. Hull’s Concerns

Trying to distinguish our Cunningham holding, Hull
urges us to view this as a distinct Chapter 13 issue
because Rockwell sold his home while proceeding in that
type of bankruptcy. He tells us that “[t]he differences
between a [C]hapter 7 case and a [C]hapter 13 case bear
on the outcome of this appeal.” According to Hull, our
analysis of the homestead exemption should include
changes based on post-petition activity because after
Rockwell filed his petition, “he retained, exclusive of the
[C]hapter 13 trustee, possession of the house and the
attendant decision-making authority over what to do
with it and the proceeds arising from its sale.”6
Though not dispositive, we disagree with Hull’s characterization
of Rockwell’s control. While it is true that a hallmark of Chapter 13
proceedings is that the debtor retains possession of his property, see
11 U.S.C. §§ 1322, 1327, the bankruptcy court still exercises control
over the debtor. Once the court confirms the debtor’s plan, the
debtor is bound by the plan’s provisions, id. § 1327(a), and the
debtor must obtain the court’s approval for any modification of the
confirmed plan. Id. § 1329. In order to discharge his debt (a debtor’s
goal in bankruptcy), absent approval by the court under special
6

14a
Essentially, the complete snapshot rule does not apply
to a Chapter 13 proceeding because under Chapter 13,
the debtor maintains control of his property.
The Code continues to inform our approach and we
find this argument unavailing. The Code considers the
transition from a Chapter 13 to a Chapter 7 case and
specifies how to examine these cases: we look to the date
the petition was filed when evaluating exemptions. 11
U.S.C. § 348(f). The bankruptcy court looks at the
debtor’s assets on the conversion date (as Hull urges us
to do here), rather than the petition date only when the
debtor converts in bad faith. Id. § 348(f)(2); see Harris,
135 S. Ct. 1837-38. Hull does not allege Rockwell converted to a Chapter 7 bankruptcy in bad faith and the
bankruptcy court made no such finding. The Code does
not contain any other provisions (and Hull does not cite
any) that instruct the bankruptcy court to treat a
Chapter 7 debtor differently if he converted his case
from Chapter 13. See Law, 571 U.S. at 425 (“[f]ederal
law provides no authority for bankruptcy courts to deny
an exemption on a ground not specified in the Code.”
(emphasis omitted)). Rather, the Code values the right
of Chapter 13 debtors to convert to Chapter 7 proceedings and specifies that the conversion right cannot be
waived. 11 U.S.C. § 1307(a).
We are unpersuaded by Hull’s implication that we
should ignore the connection between Chapter 13 and
Chapter 7 proceedings. “Many debtors . . . fail to
complete a Chapter 13 plan successfully.” Harris, 135 S.
Ct. at 1835 (citing Katherine Porter, The Pretend
Solution: An Empirical Study of Bankruptcy Outcomes,
90 Tex. L. Rev. 103, 107–111 (2011) for the proposition
circumstances, the debtor must “complet[e] . . . all payments under
the [Chapter 13] plan.” Id. § 1328(a).

15a
that only one third of Chapter 13 cases results in the
debtor successfully discharging debt). The simple fact of
this case is that Rockwell did convert his case to a
Chapter 7 bankruptcy, as many Chapter 13 debtors
ultimately do.7 See id. As a result, we must view this as
what it is: a Chapter 7 case.
Hull further argues that our holding will effectively
read the six-month limitation out of the Maine statute
in bankruptcy proceedings. Where, as here, the debtor
exempts their homestead under Maine law and then
later sells the homestead, Maine’s six-month period for
protecting the value of that homestead would not apply.
From our perspective, that is what the Code requires.
“To interpret § 522(c) as conferring merely an
ephemeral exemption, subject to post-termination
events, would undermine that basic principle and its
relationship to the fresh start policy of the Bankruptcy
Code.” In re Cunningham, 513 F.3d at 324; see Myers,
318 U.S. at 628 (“[A debtor’s] right to a homestead
exemption becomes fixed at the date of the filing of the
petition in bankruptcy and cannot thereafter be
enlarged or altered by anything the [debtor] may do.”).
As one bankruptcy court aptly put it: “[a] debtor is not
required to maintain exempt property in its exempt
state indefinitely after filing in order to avoid a
retroactive loss of the exemption.” In re Hageman, 388
B.R. 896, 900 (Bankr. C. D. Ill. 2008).
Finally, Hull reminds us that other circuits that have
addressed similar questions have reached a result that
is (or seems) at odds with the result we reach here. Hull
We do not decide whether sale proceeds continue to be exempted
under the Maine homestead exemption if the six-month period
expires after the petition date in a Chapter 13 case where there is
no conversion to Chapter 7.
7

16a
points us to the Ninth Circuit’s approach in In re
Jacobson where a Chapter 7 debtor claimed a homestead exemption under California law, a creditor forced
the sale of the homestead during the bankruptcy, and
the debtor did not reinvest the proceeds of the sale
during the six-month period, as required by California’s
homestead statute. In re Jacobson, 676 F.3d 1193, 1197
(9th Cir. 2012). The Ninth Circuit held that the sale’s
proceeds belonged to the estate, once the six-month
reinvestment period had passed. Id. The Ninth Circuit
purported to apply the snapshot rule, explaining that
the snapshot rule, in its view, incorporates “the entire
state law[,] includ[ing] a reinvestment requirement for
the debtor’s share of the homestead sale proceeds.” Id.
at 1199. Hull also relies upon the Fifth Circuit’s
approach in In re Frost, where a Chapter 13 debtor
exempted his homestead pursuant to Texas’s vanishing
homestead law and then did not reinvest the proceeds
within the required time limit. In re Frost, 744 F.3d 384,
385 (5th Cir. 2014). The Fifth Circuit held that the
debtor lost the protection of the homestead exemption,
declining to apply the complete snapshot rule. Id. at 388
(“[O]nce a new homestead has been purchased, the
funds become proceeds from the sale of a former
homestead, which fall outside the protection of the
Texas statute.” (emphasis in original)).
We find these cases unpersuasive. Neither of these
cases addresses the Code’s valued “fresh start” principles as articulated in Harris, 135 S. Ct. 1829, or the
Supreme Court’s admonishments in Law, 571 U.S. 415,
that courts reach the result required by the text of the
Bankruptcy Code. The Ninth Circuit issued its opinion
in In re Jacobson in 2012, approximately two years
before having the benefit of the Supreme Court’s
guidance in Law and three years before Harris. See In

17a
re Jacobson, 676 F.3d at 1193. The Fifth Circuit issued
its opinion in In re Frost one day after the Supreme
Court’s decision in Law, but does not mention that case,
and approximately one year before the Supreme Court’s
decision in Harris. See In re Frost, 744 F.3d at 384. We
are, of course, bound by Supreme Court precedent, not
that of our sister circuits, and reach our decision here in
accordance with the Supreme Court’s guidance.
The outcome is also not altered by our own decision
in Howison v. Hanley, 141 F.3d 384 (1st Cir. 1998). In
that case, more than two years before filing for bankruptcy, the debtor conveyed his interest in his homestead to his wife for no consideration “with the admitted
purpose of putting it beyond the reach of his creditors.”
Howison, 141 F.3d at 385. The district court found that
this was a fraudulent transfer and we affirmed. Id.
When analyzing that case, we summarized Maine’s
homestead exemption statute, 14 M.R.S. § 4422, (the
same statute at issue here), and commented that if the
debtor sells his homestead, he retains the value of the
homestead exemption, but only if he reinvests in a new
homestead in six months, as prescribed by the statute.
Id. at 386.
Howison is not on point. It does observe that under
Maine law proceeds received in the sale of an exempt
homestead lose the protection of the exemption, and
thus become available to creditors, if not reinvested in a
residence within six months. Id. We agree. Howison said
nothing at all, though, about the issue before us: what
to do if the debtor files for bankruptcy protection while
the asset (whether home or proceeds of selling the home)
is still exempt under Maine law? Howison had no need
to say anything about that issue because the debtor in
that case had conveyed his interest in his residence well
more than six months before he petitioned for bank-

18a
ruptcy. See id. at 385. If there had been any proceeds
from that conveyance, the six-month homestead exemption protection would have expired long before the
debtor’s bankruptcy filing. So, it would have made no
difference to the debtor in Howison whether one takes a
“snapshot” at the time of petitioning because, by that
time, the proceeds had already become nonexempt and
available to creditors. For that reason, this court’s
summary of Maine’s homestead statute in Howison has
no bearing on the outcome of this case.
In some circumstances, perhaps even in this circumstance, the result of this ruling will not prioritize the
debt owed to creditors. Yet, “Congress balanced the
difficult choices that exemption limits impose on debtors
with the economic harm that exemptions visit on
creditors[,]” Schwab, 560 U.S. at 791, and “it is not for
courts to alter the balance struck by the statute.” Law,
571 U.S. at 427.
WRAP UP

For the foregoing reasons, the district court’s order is
affirmed. Costs awarded to Rockwell.

19a
APPENDIX B
UNITED STATES DISTRICT COURT, D. MAINE
————
2:18-cv-00385-JAW
————
NATHANIEL RICHARD HULL, Chapter & Trustee,
v.

Appellant,

JEFFREY J. ROCKWELL, Debtor, d/b/a/
Rockwell Productions formerly d/b/a/
Rockwell Productions Inc.,
Appellee.
————
Signed September 24, 2019
————
Nathaniel R. Hull, Verrill Dana LLP, Portland, ME, for
Appellant.
Christopher J. Keach, Jennifer G. Hayden, Tanya
Sambatakos, Molleur Law Office, James F. Molleur,
Law Office of James F. Molleur, Biddeford, ME, for
Appellees.
————
ORDER ON BANKRUPTCY APPEAL

JOHN A. WOODCOCK, JR., United States District
Judge
This bankruptcy appeal presents a narrow question
of law that calls on the Court to resolve conflicting
provisions of state and federal law. To be eligible for a
state homestead exemption, a resident who claims the
exemption and sells the residence must invest the
exempt proceeds in another residence within six months

20a
of the sale. If the person claiming the exemption fails to
make a timely investment, the exemption disappears or
becomes—in the language of the law—a vanishing
exemption. By contrast, in bankruptcy law, the wellknown snapshot doctrine dictates that the rights and
obligations of the debtor become frozen as of the date of
a bankruptcy filing, much as a snapshot freezes the
image of an object as of a specific time. If the snapshot
is complete, it cannot be changed; if partial, it is subject
to revision based on subsequent events.
In this case, a person, who filed in chapter 13 and
converted into a chapter 7 bankruptcy, sold the residence during the chapter 13 proceeding and failed to
invest the proceeds of the sale of the residence within
six months as state law requires. The issue on appeal is
whether the person loses the exemption or retains it; or,
applying terms of bankruptcy law, whether the
snapshot is complete or partial. In practical terms, the
resolution of this question determines whether the
amount of the claimed exemption may be retained by
the person filing in bankruptcy or must be transferred
to the trustee for distribution in accordance with
bankruptcy law.
The Bankruptcy Court, in a well-researched and
thoughtful opinion, ruled that the homestead exemption
does not vanish, because the snapshot is complete as of
the date of bankruptcy filing. The effect of the Bankruptcy Court ruling is to allow the person claiming the
exemption to retain it despite the failure to comply with
the six-month limitation. Although there are persuasive
arguments for either position, the Court agrees with the
Bankruptcy Court and affirms its ruling.

21a
I.

BACKGROUND
A. Procedural History

On September 20, 2018, chapter 7 trustee Nathaniel
R. Hull filed an appeal pursuant to 28 U.S.C. § 158 from
the August 23, 2018 Order of the United States
Bankruptcy Court for the District of Maine overruling
Mr. Hull’s objection to Mr. Rockwell’s claimed homestead exemption. Notice of Appeal (ECF No. 1). On
November 2, 2018, Mr. Hull filed his brief in support of
the appeal. Br. of the Appellant (ECF No. 5) (Appellant’s
Br.). On December 3, 2018, Appellee Jeffrey J. Rockwell
filed his response. Br. of Appellee Jeffrey J. Rockwell
(ECF No. 7) (Appellee’s Opp’n). On December 17, 2018,
Mr. Hull filed his reply. Reply Br. of Appellant (ECF No.
8) (Appellant’s Reply).
B. The Bankruptcy Court Proceedings
1. Facts

The facts are undisputed. Jeffrey J. Rockwell purchased the property and buildings located at 24 B
Street, South Portland, Maine, in 2001. Bankruptcy
Appeal, Attach. 4 at 2 (ECF No. 1) (Mem. of Decision);
Appellee’s Opp’n at 2. On August 19, 2015, Mr. Rockwell
filed a voluntary petition for relief in Bankruptcy Court,
pursuant to the Bankruptcy Reform Act of 1978, 11
U.S.C. §§ 101, et seq. Mem. of Decision at 2; Appellee’s
Opp’n at 2. At the time of his petition, he owned and
resided at the property. Mem. of Decision at 2; Appellee’s
Opp’n at 2 (“The Appellee had owned the Property since
2001 and it was the Appellee’s primary residence”).
According to Mr. Rockwell’s chapter 13 bankruptcy
schedule, pursuant to 11 U.S.C. § 522(b)(3)—which
allows a debtor to claim available state law exemptions
he claimed an exemption under Maine’s homestead

22a
exemption statute, 14 M.R.S.A. § 4422(1), in the
maximum statutory amount of $47,500, based on his
equity in the property. Mem. of Decision at 2.
In November 2015, the Bankruptcy Court confirmed
Mr. Rockwell’s chapter 13 plan of reorganization. Id. His
plan anticipated he would directly pay the holder of the
first mortgage on the property and retain the B Street
property. Id. However, by December of 2016, Mr.
Rockwell decided to sell the property. Appellee’s Opp’n
at 2. Mr. Rockwell sought permission from the Bankruptcy Court to sell the property for $160,000 and to
apply any non-exempt proceeds from the sale to the
chapter 13 plan. Id.
At the hearing on the motion to sell the B Street
property, the chapter 13 trustee, in his words, “mildly”
voiced concerns about the sale price but expected the
Bankruptcy Court would grant the motion to sell as a
proper exercise of Mr. Rockwell’s business judgment.
Mem. of Decision at 2. On January 12, 2017, the Bankruptcy Court approved the change, authorizing Mr.
Rockwell to sell the B Street property and to pay from
the proceeds of the sale (1) his ordinary and customary
closing expenses, (2) the balance due to U.S. Bank, and
(3) to contribute any non-exempt sale proceeds to his
chapter 13 plan. Id.
The closing took place on March 6, 2017. Id. After the
closing, $51,682.87 remained after the first mortgage
obligation was satisfied and closing costs were paid; Mr.
Rockwell received $47,500 and Mr. Hull, as chapter 13
trustee, received $4,182.87. Mem. of Decision at 2.
Under 14 M.R.S. § 4422(1)(C), a person claiming a
homestead exemption must reinvest the exempted portion of the proceeds of the sale of the residence in a new
residence within six months. Id. (“C. That portion of the
proceeds from any sale of property which is exempt

23a
under this section shall be exempt for a period of 6
months from the date of receipt of such proceeds for
purposes of reinvesting in a residence within that
period”). However, contrary to the express requirements
of Maine’s homestead exemption, Mr. Rockwell did not
spend any of the proceeds of the sale on the purchase of
a new residence. Bankruptcy Case No. 15-20583
(Bankruptcy Case), Stipulation (ECF No. 144) (Stip.).
On August 7, 2017, Mr. Rockwell converted his chapter 13 bankruptcy to a chapter 7 bankruptcy case.
Appellee’s Opp’n at 3; Mem. of Decision at 2-3. On
November 8, 2017, the Bankruptcy Court granted an
order of discharge under 11 U.S.C. § 727. Bankruptcy
Case, Order Discharging Debtor (ECF No. 123). As of
the date of the conversion, Mr. Rockwell had spent
$18,806.23 of the proceeds of the sale, leaving a balance
of $28,693.77. Mem. of Decision at 3. On December 4,
2017, Mr. Hull filed an objection to Mr. Rockwell’s
claim of exemptions pursuant to Rule 4003(b) of the
Federal Rules of Bankruptcy Procedure, claiming that
Mr. Rockwell failed to meet the six-month reinvestment
requirement of Maine’s homestead exemption. Bankruptcy Case, Obj. to Debtor’s Claim of Exemptions, at 12 (ECF No. 125). The Bankruptcy Court held a trial on
May 22, 2018 and overruled Mr. Hull’s objection in its
August 23, 2018 Order and Memorandum of Decision.
See Order at 1; Mem. of Decision at 1.
2. Memorandum of Decision

In its Memorandum of Decision, the Bankruptcy
Court “examine[d] the permanence of an exemption
claim in proceeds resulting from the sale of the debtor’s
homestead in a converted chapter 7 case in a jurisdiction with a temporal limit to its homestead proceeds
exemption . . . .” Mem. of Decision at 1. The Bankruptcy

24a
Court acknowledged that “[t]here is no specific controlling authority from the United States Court of Appeals
for the First Circuit on the exact issue presented in the
case and there is no uniform approach among the courts
to vanishing state law homestead proceeds exemptions
in bankruptcy[.]” Id. at 5.
The Bankruptcy Court discussed at length the two
approaches used by other courts when applying similar
exemptions to chapter 7 cases: the partial snapshot view
and the complete snapshot view. Id. at 8. As the
Bankruptcy Court explained, “[t]he ‘snap-shot’ doctrine
provides that the rights of the debtor, and the facts and
circumstances that undergird those rights, are locked in
as of the petition date.’’ Id. at 8 n.8. However, some
courts interpret the snapshot rule as incorporating the
debtor’s post-petition failure to reinvest the proceeds in
another residence, as required by the temporal limitation on a state’s homestead exemption, while others hold
the exemption as fixed as of the date of filing. Id. at 910. After discussing these two approaches, the Bankruptcy Court concluded that “the complete snap-shot
view more faithfully adheres to the Code, First Circuit
authority, and the practicalities of administering a
chapter 7 case.” Id. at 11.
II. POSITIONS OF THE PARTIES
A. Brief of Appellant Nathaniel Hull

Mr. Hull’s appeal
challenges the Bankruptcy Court’s conclusion
that Maine’s homestead proceeds exemption . . .
does not continue to operate during the course
of a bankruptcy case and, instead, is frozen in
time at the filing date and immutable thereafter, even by the voluntary failure of the debtor

25a
to comply with Maine’s statutory reinvestment
requirement.
Appellant’s Br. at 4. According to Mr. Hull, “in the
absence of an overriding Bankruptcy Code policy that
would compel such a drastic departure from the operation of Maine’s exemption scheme, the Bankruptcy
Court should adhere to the calibrated limitations placed
on exemptions by the State of Maine.” Id. at 5. Mr. Hull
contends that the “partial” snapshot rule would reflect
the deference Congress has given states to define
exemptions under state law, while also adhering to
Supreme Court caselaw regarding homestead claims.
Id. at 7.
According to Mr. Hull, the fact that Congress allows
states to opt out of the set of federal exemptions in
§ 522(b) in favor of the state’s own exemptions shows a
congressional intent to defer to the state’s interest
regarding the applicability of exemptions, a priority
reflected in Butner v. United States, 440 U.S. 48, 55, 99
S.Ct. 914, 59 L.Ed.2d 136 (1979). Appellant’s Br. at 8-9.
Furthermore, Mr. Hull argues that applying the partial
snapshot approach is in keeping with the purpose
behind the homestead exemption under 14 M.R.S.
§ 4422(1), which is to “preserve the equity value that the
homeowners built up in the first home, to the extent of
the maximum amount of the exemption.” Appellant’s
Br. at 11 (citing In re Grindal, 30 B.R. 651, 653 n.4
(Bankr. D. Me. 1983)). The Bankruptcy Court’s interpretation, Mr. Hull argues, favors non-homeowners
over homeowners and results in a dramatic difference
in the exempted property allowed for a debtor in a
bankruptcy case in comparison with a non-debtor who
has not sought bankruptcy protection. Id. at 12-14.
Mr. Hull contends that the Bankruptcy Court erred
in concluding that the six-month limitation under

26a
§ 522(b) conflicts with the Bankruptcy Code, because
Supreme Court cases have “look[ed] to post-petition
events to determine the applicability of those exemptions on the filing date.” Id. at 15 (citing White v. Stump,
266 U.S. 310, 45 S.Ct. 103, 69 L.Ed. 301 (1924); Myers
v. Matley, 318 U.S. 622, 63 S.Ct. 780, 87 L.Ed. 1043
(1943)). Mr. Hull also cites the Fifth Circuit, which, in
applying White and Myers in a vanishing exemption
case, concluded that
Myers thus confirms the basic holding from
White v. Stump that the law and facts existing
on the date of filing the bankruptcy petition determine the existence of available exemption,
but flags the important reminder that it is the
entire state law applicable on the filing date
that is determinative.
Id. at 21 (citing In re Zibman, 268 F.3d 298, 304 (5th
Cir. 2001)). Here, Mr. Hull says, the right to take the act
authorized under § 522(b) was frozen when Mr.
Rockwell filed his petition, but as Mr. Rockwell failed to
take the affirmative act required by the statute, he
should not reap the benefit of the exemption. Id. The
Bankruptcy Court’s application of the complete snapshot approach, Mr. Hull says, “effectively read the six
(6) month limitation out of the statute, and transformed
an explicitly limited exemption into a permanent one.”
Id.
Mr. Hull says that Owen v. Owen, 500 U.S. 305, 111
S.Ct. 1833, 114 L.Ed.2d 350 (1991) is distinguishable
because in Owen, a Bankruptcy Code policy expressly
conflicted with the state exemption statute. As a result,
“the Supreme Court held that a debtor could ‘avoid’ a
pre-existing judicial lien encumbering property pursuant to 11 U.S.C. § 522(f) even though the state exemption statute had defined the exemption to specifically

27a
exclude property to which pre-existing judicial liens had
attached.” Appellant’s Br. at 22 (citing Owen, 500 U.S.
at 305, 111 S.Ct. 1833). Mr. Hull says that Owen is a
preemption case, whereas ‘‘[t]his case solely concerns
Maine’s ability to set a time in which the debtor must
take an affirmative action in order to maintain a property’s exempt status . . . .” Id. at 24.
Similarly, Mr. Hull says the First Circuit case of In
re Cunningham is distinguishable from the present case
in two ways: first, it ‘‘was in a significantly different
place procedurally when the appeal was taken . . .
[because] the First Circuit was considering this issue
only after an unsuccessful challenge to the exemption,”
id. at 25-26, and second, because the exemption in
Cunningham was not time-limited. Id. at 27-28 (citing
In re Cunningham, 513 F.3d 318, 321 (1st Cir. 2008)).
In Mr. Hull’s view, In re Williams, however, addressed the Massachusetts law after it had been
changed to a vanishing exemption similar to the exemption at issue here, and concluded that ‘‘a state law exemption defined by an innate temporal limitation shall
expire pursuant to that limitation notwithstanding an
intervening bankruptcy.” Id. at 27 (citing M.G.L.A. ch.
188, § 11(a)(1); In re Williams, 515 B.R. 395, 403 (Bankr.
D. Mass 2014)). Mr. Hull says that In re Williams
reflects Fifth Circuit and Ninth Circuit authority
regarding the operation of vanishing exemptions under
similar circumstances. Id. at 29.
Mr. Hull cites Federal Rule of Bankruptcy Procedure
1019(2)(B)(i) as support for the partial-snapshot approach, because the rule ‘‘provides that ‘[a] new time
period for filing an objection to a claim of exemptions
shall commence under Rule 4003(b) after conversion’ of
a chapter 13 case to one under chapter 7.’’ Id. at 30
(quoting FED. R. BANKR. P. 1019(2)(B)). Although Mr.

28a
Hull admits that ‘‘the Maine Law Court has not spoken
directly about he operation of the ‘vanishing’ exemption,” he argues that if faced with the issue, the Law
Court would enforce the limitation and deny the
exemption, given the ‘‘language of the statute and the
unequivocal legislative intent.” Id. at 31-32.
Finally, Mr. Hull contends that applying Maine’s
temporal limitation would still allow for the prompt administration of bankruptcy cases, because the Bankruptcy Code’s abandonment provision, § 554(b), allows
a bankruptcy court to order the trustee to abandon any
property of the estate that is ‘‘burdensome to the estate
or of inconsequential value and benefit to the state”
upon the request of a party in interest. Id. at 34-35
(quoting 11 U.S.C. § 554(b)).
B. Brief of Appellee Jeffrey Rockwell

Mr. Rockwell, in response, argues that the snapshot
rule is a well-established ‘‘maxim in bankruptcy matters
that the Supreme Court . . . articulated nearly a century
ago,” and that the Bankruptcy Court correctly overruled
Mr. Hull’s objection to Mr. Rockwell’s homestead objection, ‘‘properly claimed pursuant to 11 U.S.C. § 522(b)(3)
and 14 M.R.S.A. § 4422(1)(A) . . . .” Appellee’s Opp’n at
5. According to Mr. Rockwell, the Bankruptcy Court correctly concluded that the rights of a debtor to an exemption should be determined by ‘‘the facts and law in place
on the petition date . . . .” Id. (quoting Mem. of Decision
at 8). The Bankruptcy Court’s decision, according to Mr.
Rockwell, reflects both ‘‘the binding precedent of the
First Circuit in Cunningham that exemptions are determined when a petition is filed and the binding precedent
of the Supreme Court that conversion from chapter 13
to chapter 7 does not change the petition date.” Id. at 78 (citing Harris v. Viegelahn, 575 U.S. 510, 135 S. Ct.

29a
1829, 1836, 191 L.Ed.2d 783 (2015); Cunningham, 513
F.3d at 324). Mr. Rockwell also quotes Myers, 318 U.S.
at 628, 63 S.Ct. 780, for the proposition that “the bankrupt’s right to a homestead exemption becomes fixed at
the date of the filing of the petition in bankruptcy and
cannot thereafter be enlarged or altered by anything the
bankrupt may do.’’ Appellee’s Opp’n at 9.
Mr. Rockwell contends that “[t]o require that the proceeds of a sale that occurs during bankruptcy of a homestead property that the debtor has properly claimed as
exempt be made available for the satisfaction of prepetition debts and/or administrative expense claims
would violate the fresh start principles of the Bankruptcy Code.’’ Id. at 13-14 (citing Cunningham, 513 F.3d
at 324; Butner, 440 U.S. 48, 55, 99 S.Ct. 914, 59 L.Ed.2d
136 (1979)). Mr. Rockwell says this “competing federal
interest[ ]’’ overrides the temporal limitation set forth in
Maine’s homestead exemption provisions. Id. at 15. Mr.
Rockwell argues that the duty of a trustee to “collect and
reduce to money the property of the estate for which
such trustee serves, and close such estate as expeditiously as is compatible with the best interests of parties
in interest’’ conflicts with the Maine state law provision.
Id. at 16-17 (quoting 11 U.S.C. § 704(a)(1)). Additionally,
Mr. Rockwell disputes the significance of the committee
report Mr. Hull cited, arguing that it is improper to interpret legislative intent when the language of the statute is clear and unambiguous, citing Robinson v. Shell
Oil Co., 519 U.S. 337, 340, 117 S.Ct. 843, 136 L.Ed.2d
808 (1997), and that the report itself “is by no means
determinative of the legislative intent of the full Maine
legislature at the time 14 M.R.S.A. § 4422(1)(C) became
law.’’ Appellee’s Opp’n at 19.
In response to Mr. Hull’s reliance on the decisions
from the Fifth and Ninth Circuits In re Frost and

30a
Zibman “for the proposition that ‘state law exemptions
must be analyzed in terms of the exact scope of the
rights [the statute] confers at the time of the bankruptcy
petition,’’’ Mr. Rockwell says that this authority actually
supports his position, because he sold the residence
after he filed his bankruptcy petition. Id. at 21-22
(quoting Appellant’s Br. at 29) (alteration in original).
Therefore, according to Mr. Rockwell, “[t]he exact scope
of the rights conferred by Maine’s homestead exemption
law on the Appellee at the time he filed his bankruptcy
petition was for the Appellee’s ‘aggregate interest,
not to exceed $47,500 in value, in real or personal
property . . . .’’’ Id. at 22 (quoting Section 4422(1)(A)). In
other words, the post-petition sale of the residence did
not change Mr. Rockwell’s right to the exemption
claimed pursuant to section 4422(1)(A), as Mr. Rockwell
says the Fifth Circuit held in Matter of DeBerry, 884
F.3d 526, 529 (5th Cir. 2018), and in In re Williams, 525
B.R. at 397. Appellee’s Opp’n at 22-23.
C. Reply Brief of Appellant Nathaniel Hull

In reply, Mr. Hull states that “all of the important
events underlying this dispute occurred while the
Debtor maintained full control of his property under the
protection of chapter 13 of the United States Bankruptcy Code, 11 U.S.C. §§ 101, et seq. . . . rather than
chapter 7.’’ Appellant’s Reply at 1. As such, Mr. Hull
argues, Mr. Rockwell “was not a passive bystander’’ in a
chapter 7 trustee’s effort to sell his home, but was in
control of his property at the time the home was sold. Id.
at 2. Mr. Hull highlights language in DeBerry noting
that there is a key distinction between “holding debtors
accountable for their failure to reinvest homestead
proceeds within the applicable statutory period” in
chapter 13 cases versus chapter 7 cases. Id. (citing

31a
DeBerry, 884 F.3d at 526). Mr. Hull argues that there is
“no reason why a debtor should be permitted to evade
the operation of vanishing exemptions simply by
converting his case from chapter 13 to chapter 7 after
the house is sold and the proceeds are gone.” Id. at 3.
Mr. Hull contends that the Fifth Circuit differentiated between the proper application of vanishing exemptions in chapter 7 and chapter 13 cases in its body
of case-law. Id. at 9 (citing In re Frost, 744 F.3d 384, 384
(5th Cir. 2014)). In Frost, the Fifth Circuit held that the
proceeds of the sale of the debtor’s residence, sold after
he filed for chapter 13 bankruptcy, were “removed from
the protection of Texas bankruptcy law and no longer
exempt from the case” because the debtor “failed to reinvest the sale proceeds in another homestead within six
months of the sale.” Id. at 9-10 (citing Frost, 744 F.3d at
385, 387). Mr. Hull argues that this outcome is reasonable so that chapter 13 debtors, who maintain full control
of their property during the pendency of a chapter 13
case, are held “accountable for their failure to reinvest
their proceeds after a wholly voluntary sale . . . .” Id. at
11.
Mr. Hull also disputes Mr. Rockwell’s assertion that
applying the full operation of Maine’s vanishing exemption would lead to complications in the administration
of chapter 7 cases and potential delay in their resolution. Id. at 11-12. Mr. Hull contends that the abandonment provision of the Bankruptcy Code could ensure
prompt administration of chapter 7 cases. Id. at 12. Mr.
Hull notes that other courts have chosen not to base
their decisions on the potential delay in the resolution
of chapter 7 cases, which the Ninth Circuit called “ ‘too
speculative’ to drive the decision.” Id. at 14 (quoting
Wolfe v. Jacobson (In re Jacobson), 676 F.3d 1193, 1200
(9th Cir. 2012)).

32a
III. DISCUSSION
A. Standard of Review

“Review of the Bankruptcy Court order on appeal
before [the District Court] is governed by Rule 8013 of
the Federal Rules of Bankruptcy, which provides a
District Court may ‘affirm, modify or reverse a bankruptcy judge’s judgment, order, or decree or remand
with instructions for further proceedings.’’’ In re
Wolverine, Proctor & Schwartz, LLC, 436 B.R. 253, 260
(D. Mass. 2010) (quoting FED. R. BANKR. P. 8013).
“Although other issues may remain for resolution in a
case after the determination of the Debtor’s claimed
exemptions, orders granting or denying exemptions are
appealable as final orders . . . .” Howe v. Richardson (In
re Howe), 232 B.R. 534, 535 (1st Cir. BAP 1999), aff’d,
193 F.3d 60 (1st Cir. 1999). “[W]hen a party chooses to
appeal a bankruptcy court decision to the district court
pursuant to 28 U.S.C. § 158(a), the district court reviews
the bankruptcy court’s conclusions of law de novo.”
Braemer v. Lowey, No. 08-cv-349-P-S, 2009 WL 465972,
at *1, 2009 U.S. Dist. LEXIS 14426 (D. Me. Feb. 24,
2009) (italics in original) (citing Davis v. Cox, 356 F.3d
76, 82 (1st Cir. 2004); In re Watman, 301 F.3d 3, 7 (1st
Cir. 2002)). “In accordance with Federal Rule of Bankruptcy Procedure 8013, the Bankruptcy Court’s findings
of fact will not be set aside ‘unless clearly erroneous.’’’
Id. at *1, 2009 U.S. Dist. LEXIS 14426, at *2-3 (quoting
FED. R. BANK. P. 8013).
B. Jurisdiction

This Court has jurisdiction over this appeal pursuant
to 28 U.S.C. § 158(a)(1), as the Appellant is appealing
the Order Overruling the Trustee’s Objection to Mr.
Rockwell’s Exemption entered by the Bankruptcy Court

33a
on August 23, 2018. See Order at 1. “Orders granting or
denying exemptions are appealable as final orders
under 28 U.S.C. § 158.” Howe, 232 B.R. at 535 (citations
omitted). Mr. Hull, as chapter 7 trustee, has a right to
appeal the Order because it was a final order, which he
timely appealed under Bankruptcy Rule 8003. On
September 19, 2018, the Appellee, Mr. Rockwell, filed
his Statement of Election, electing to have this appeal
heard by this Court rather than the Bankruptcy
Appellate Panel for the First Circuit. Bankruptcy
Certificate of Readiness Received, Attach. 2 (ECF No. 2).
C. Maine’s Homestead Exemption, 14 M.R.S. § 4422

“An estate in bankruptcy consists of all the interests
in property, legal and equitable, possessed by the debtor
at the time of filing, as well as those interests recovered
or recoverable through transfer and lien avoidance
provisions.” Owen v. Owen, 500 U.S. 305, 308, 111 S.Ct.
1833, 114 L.Ed.2d 350 (1991). “A debtor may claim that
certain interests in property are exempt from the estate,
thus withdrawing that ‘interest . . . from the estate (and
hence from the creditors) for the benefit of the debtor.’’’
In re Williams, 515 B.R. 395, 399 (Bankr. D. Mass. 2014)
(quoting Owen, 500 U.S. at 308, 111 S.Ct. 1833).
Pursuant to § 522(b)(1), debtors can “elect[ ] between
those exemptions provided in 522(d), or, alternatively,
exemptions available under state and federal nonbankruptcy law.” Howe, 232 B.R. at 536.
Section 522(b)(1) also allows individual states to “opt
out” of the § 522(d) exemption scheme, removing that
option for its bankruptcy debtors. Id. “If a State opts out,
then its debtors are limited to the exemptions provided
by state law.” Owen, 500 U.S. at 308, 111 S.Ct. 1833.
Maine, along with thirty other states, “opted out” of the
federal exemptions. Dubois v. Fales (In re Dubois), 306

34a
B.R. 423, 427 (Bankr. D. Me. 2004). In doing so, Maine
created its own exemption scheme applicable to bankruptcy proceedings, providing that “any debtor eligible
for a residence exemption under section 4422, subsection 1, paragraph B, may exempt the amount allowed in
that paragraph.’’ 14 M.R.S. § 4426. This exemption
allows the debtor to protect up to $47,500 in real or
personal property that the debtor or the debtor’s
dependents use as a residence. Id. § 4422(1)(A). It also
allows the proceeds from the sale of the exempt property
to retain exempt status for six months for purposes of
reinvesting in a residence. Id. § 4422(1)(C).
Exemptions must be considered within the context of
what would otherwise be property of the bankruptcy
estate, which is created “as of the commencement of the
[bankruptcy] case.” Maine Dep’t of Health & Human
Servs. v. Getchell Agency, No. 1:17-cv-00252-JAW, 2018
WL 1831412, at *4 (D. Me. Apr. 17, 2018) (quoting 11
U.S.C. § 541(a)(1)). “It is a basic principle of bankruptcy
law that exemptions are determined when a petition is
filed.’’ In re Cunningham, 513 F.3d 318, 324 (1st Cir.
2008).
If Maine’s homestead exemption is consistent with
federal bankruptcy law, it may stand. However, if “the
Maine residence exemption statute . . . is at odds with
federal bankruptcy law[, a]s [Bruin Portfolio, LLC v.]
Leicht [(In re Leicht), 222 B.R. 670 (1st Cir. BAP 1998) ],
teaches, the conflicting state law provision must give
way.” (In re Dubois), 306 B.R. 423, 427 (Bankr. D. Me.
2004).
D. Analysis
1. The Bankruptcy Court Ruling

As the Bankruptcy Court discussed in its Memorandum of Decision, the First Circuit has not directly

35a
addressed whether the Maine (or similar) homestead
exemption vanishes in the circumstances of this case,
Mem. of Decision at 5, and the Maine Supreme Judicial
Court has not provided insight into the intended effect
of the state law exemption in chapter 7 cases. Courts
outside this circuit have taken different approaches
with vanishing exemptions in the context of chapter 7
cases and have reached opposite conclusions.
For example, “the United States Courts of Appeal for
the Fifth and Ninth Circuits have both held sale proceeds not reinvested within the applicable statutory
periods under Texas and California law, respectively,
subsequently lost their exempt status post-petition.’’ In
re Williams, 515 B.R. 395, 401 (Bankr. D. Mass. 2014)
(citing In re Frost, 744 F.3d 384, 388 (5th Cir. 2014); In
re Jacobson, 676 F.3d 1193, 1199 (9th Cir. 2012); In re
Morgan, 481 Fed. App’x 183, 187 (5th Cir. 2012); In re
Zibman, 268 F.3d 298, 304 (5th Cir. 2001); In re Golden,
789 F.2d 698, 700 (9th Cir. 1986)). The Fifth Circuit in
Zibman cited the Supreme Court’s holdings in Myers
and White as concluding that “the law and facts existing
on the date of filing the bankruptcy petition determine
the existence of available exemptions, [while] flag[ging]
the important reminder that it is the entire state law
applicable on the filing date that is determinative.’’
Zibman, 268 F.3d at 303-04 (emphasis in original)
(citing Myers v. Matley, 318 U.S. 622, 628, 63 S.Ct. 780,
87 L.Ed. 1043 (1943); White v. Stump, 266 U.S. 310, 310,
45 S.Ct. 103, 69 L.Ed. 301 (1924)).
Other courts have held that “developments which
occur after filing should not impact on the entitlement
to an exemption properly claimed at filing,” highlighting
the inefficiency and uncertainty that could result from
trustees waiting for an exemption to expire before
closing a chapter 7 case, id. (quoting In re Snowden, 386

36a
B.R. 730, 734 (Bankr. C. D. Ill. 2008); In re Lantz, 446
B.R. 850, 861 (Bankr. N. D. Ill. 2011)), and the importance of the fresh start principles of the Bankruptcy
Code. In re Awayda, 574 B.R. 692, 695 (Bankr. C.D. Ill.
2017). As one court stated, “[a] debtor is not required to
maintain exempt property in its exempt state indefinitely after filing in order to avoid a retroactive loss of
the exemption.” In re Hageman, 388 B.R. 896, 900
(Bankr. C. D. Ill. 2008).
In light of this divergent body of case-law, the Bankruptcy Court weighed both approaches and concluded
“that the complete snap-shot view more faithfully
adheres to the Code, First Circuit authority, and
the practicalities of administering a chapter 7 case.”
Mem. of Decision at 11. For support, it cited In re
Cunningham, 513 F.3d 318, 324 (1st Cir. 2008), and
Law v. Siegel, 571 U.S. 415, 422-23, 134 S.Ct. 1188, 188
L.Ed.2d 146 (2014). Mem. of Decision at 11-12.
2. Overview

As the Bankruptcy Court’s opinion thoroughly
addresses the issues Mr. Hull presents on appeal, the
Court declines to rewrite what the Bankruptcy Court
already articulated. See Talbott v. C.R. Bard, Inc., 63
F.3d 25, 31 (1st Cir. 1995); In re San Juan Dupont Plaza
Hotel Fire Litig., 989 F.2d 36, 38 (1st Cir. 1993) (where
district judge produces a well-reasoned opinion that
reaches the correct result, a reviewing court should not
write at length merely to put matters in its own words).
The Court writes to provide analysis on the issues Mr.
Hull raised on appeal to expand slightly upon the
Bankruptcy Court’s order.

37a
3. Practicalities of Chapter 7 Administration

First, the Court accepts the Bankruptcy Court’s
assessment of the pragmatic impact of the parties’
respective positions on the “practicalities of administering a chapter 7 case,” and its determination that the
practicalities of bankruptcy administration favor Mr.
Rockwell. Mem. of Decision at 11, 15 n.17. The Court
considers the Bankruptcy Court’s finding not a conclusion of law, but a finding of fact (or perhaps judicial
notice) based on the Bankruptcy Court’s superior
knowledge of its own docket. Indeed, the Bankruptcy
Court expressed concern that, if Mr. Hull’s view prevailed, chapter 7 trustees would be incentivized to run
out the clock, waiting out the time limit imposed by
state statute to see if the bankrupt failed to comply with
the state statute, a result that the Bankruptcy Court
noted would be contrary to the Bankruptcy Code’s directive to trustees to “expeditiously” resolve chapter 7
proceedings. Id. at 15 n.17 (quoting 11 U.S.C.
§ 704(a)(1)). The Bankruptcy Court did not find this
observation to be determinative but cited it as a
“pragmatic reason against adopting the partial snapshot approach.” Id. The Court adopts the Bankruptcy
Court’s observation as reflective of its greater expertise
on matters within its aegis.
In his objection, Mr. Hull writes that courts have
considered arguments about the practical impact of
adopting the partial-snapshot approach to be “‘too
speculative’ to drive the decision.” Appellant’s Reply at
14 (quoting In re Jacobson, 676 F.3d 1193, 1200 (9th Cir.
2012)). It is true that the Ninth Circuit in In re Jacobson
did not credit the Bankruptcy Court’s assessment of the
practical and policy considerations potentially affected
by its ruling.

38a
On this narrow point, this Court respectfully disagrees but only slightly with the Ninth Circuit’s “too
speculative” conclusion. Whether characterized as a
finding of fact or a policy assessment, it strikes this
Court that a bankruptcy judge is in an ideal position to
evaluate the practical consequences of a bankruptcy law
ruling on the administration of bankruptcy cases. At the
same time, the bankruptcy judge in this case was
careful to note that the assessment of the practical
consequences of adopting the partial snapshot approach
was “not determinative of the conclusion reached by the
court.” Mem. of Decision at 15, n.17. This Court interprets the Bankruptcy Court’s discussion on the practical
impact of a partial snapshot approach as of limited
value because, as the Ninth Circuit intimated, it is difficult to know how a chapter 7 trustee would act in a
specific future case. Yet, unlike the Ninth Circuit, this
Court does not entirely disregard the Bankruptcy
Court’s concerns about the impact of its ruling on the
administration of bankruptcy cases.
4. An Actual Conflict

Mr. Hull argues that there is no actual conflict
between the Bankruptcy Code and section 4422 in this
case; instead, there is “an inherent limitation to an
exemption that is generally applicable”; therefore, the
temporal limitation in Maine’s homestead exemption
must apply. Appellant’s Br. at 6-7. To conclude
otherwise, Mr. Hull argues, would be to fail to “adhere[ ]
to the deference Congress has provided to states to
define the scope and extent of exemptions applicable in
their respective state . . . .” Id. at 7. Mr. Hull contends
that applying the complete snapshot rule to Maine’s
vanishing exemption, in effect, “transform[s] an
explicitly limited exemption . . . to a permanent one” in

39a
cases in which a residence is sold during a bankruptcy
case, but the debtor fails to reinvest the proceeds of the
sale in a new residence as section 4422(1)(C) requires.
Id. at 14. This result, as noted by the Fifth Circuit in
Zibman, “effectively read[s] the 6 month limitation out
of the statute.” In re Zibman, 268 F.3d 298, 304 (1st Cir.
2001). This argument is not without merit.
In making this argument, Mr. Hull relies on the Fifth
Circuit Zibman case. There is an important factual
difference between Zibman and the facts of this case:
here, there is no dispute that Mr. Rockwell sold his
residence well after he filed for bankruptcy under
chapter 13.1 By contrast, the debtors in Zibman sold the
residence before they filed under chapter 7. Id. at 300
(‘‘On November 27, 1998, the Zibmans sold the Houston
home . . . . [O]n February 9, 1999, the Zibmans filed for
1 It is well-settled that exemptions are determined at the time of
filing. In re Cunningham, 513 F.3d 318, 318 (1st Cir. 2008). The
Bankruptcy Court, in determining the effect of Mr. Rockwell’s
conversion of his chapter 13 case to a chapter 7 case, concluded that
pursuant to section 348(a) of the Bankruptcy Code, the conversion
of a case from one chapter to another does not change the date of
filing, which is the “appropriate time to use to determine [Mr.
Rockwell’s] rights to exempt proceeds.” Mem. of Decision at 7.
Mr. Hull places great emphasis on the fact that at the time Mr.
Rockwell sold his residence, the case was a chapter 13 case, and
therefore, the decision to sell the residence was completely within
his control, not the control of a chapter 7 trustee. But “[a]t no time
during the chapter 13 portion of the case did the chapter 13 trustee
challenge the exempt status of the $47,500 proceeds.” Mem. of
Decision at 6. Mr. Hull objected to Mr. Rockwell’s exemption four
months after the case was converted to chapter 7. Id. The Court,
therefore, considers the exemption in the context of a chapter 7 case
but refers back to Mr. Rockwell’s original date of filing of the chapter
13 petition for the purposes of determining the property of the
bankruptcy estate and Mr. Rockwell’s right to exemptions.

40a
bankruptcy protection under chapter 7, claiming as
exempt the full amount of the proceeds from the sale of
their Houston homestead”).
This was a critical distinction, according to the Fifth
Circuit’s later decision in DeBerry: ‘‘Because the Zibman
debtor had sold the homestead prepetition, the proceeds
were only conditionally exempted subject to the reinvestment Texas requires. In contrast, this homestead
was owned on the date of DeBerry’s filing and thus was
‘subject to an unconditional exemption under Texas
law.’’’ In re DeBerry, 884 F.3d 526, 529 (5th Cir. 2018)
(quoting Hawk v. Engelhart, 871 F.3d 287, 296 (5th Cir.
2017) (holding that the exemption for retirement accounts under Texas law is unconditionally exempted at
the time of the chapter 7 filing)). The DeBerry Court
concluded that ‘‘the homestead [is] exempt because it
was owned at the commencement of DeBerry’s
bankruptcy.” Id. at 530.
Here, as in DeBerry, Mr. Rockwell’s residence, at the
time he filed for chapter 13 bankruptcy, was subject to
an unconditional exemption provided under section
4422(1)(A). The conditional exemption that applies in
the case of the sale of the exempted residence under
section 4422(1)(C) did not apply at the time the petition
was filed, because Mr. Rockwell had not yet sold the
residence. In short, Mr. Hull’s reliance on the Fifth
Circuit’s reasoning in Zibman is less compelling in light
of the distinction the Fifth Circuit subsequently drew
between pre-and post-petition proceeds in Hawk and
DeBerry.
Mr. Hull argues that relevant Supreme Court and
First Circuit caselaw supports the application of the
partial snapshot rule, not the complete snapshot rule.
Appellant’s Br. at 6. He interprets Myers and White as
‘‘set[ting] forth the same understanding that the

41a
Supreme Court maintained as recently as 2014 when it
stated in Law v. Siegel that ‘when a debtor claims a
state-created exemption, the exemption’s scope is determined by state law.’’’ Id. at 16 (quoting Law v. Siegel,
571 U.S. 415, 425, 134 S.Ct. 1188, 188 L.Ed.2d 146
(2014)); see also Myers v. Matley, 318 U.S. 622, 63 S.Ct.
780, 87 L.Ed. 1043 (1943); White, 266 U.S. 310, 45 S.Ct.
103, 69 L.Ed. 301 (1924). However, consistent with the
Fifth Circuit’s clarification in DeBerry, Mr. Rockwell’s
right at the date of filing was to a permanent exemption
in the equity of his residence, rather than the right to a
conditional exemption in the proceeds from the sale of
his residence.
5. State Law and the Bankruptcy Code

Even if the conditional exemption applied at the date
of petition, the cases Mr. Hull cites do not support his
proposition. While it is true, as stated by the Siegel
Court, that “federal law provides no authority for bankruptcy courts to deny an exemption on a ground not
specified in the Code,” Siegel, 571 U.S. at 425, 134 S.Ct.
1188, “[t]he snapshot rule merely controls the moment
in time upon which a debtor’s right to claim exemptions
is based and what state laws apply to the facts as they
are at that time.’’ In re Awayda, 574 B.R. 692, 697-98
(Bankr. C.D. Ill. 2017). Here, as in Awayda, “the Debtor
should not be deprived of her exemptions by this Court
reading into the Code a provision that exemptions need
not be determined as of the date of filing or can be
considered conditional and subject to postpetition
divestiture.” Id. (citing Siegel, 571 U.S. at 424-25, 134
S.Ct. 1188).

42a
6. Cunningham and Its Binding Force

Mr. Hull argues that Cunningham can be distinguished because the case did not involve a vanishing
exemption, and “Cunningham held that exemptions
should not be subject to post-termination events but a
vanishing exemption is not the same as one that is
‘terminated.’ Instead, a vanishing exemption merely
reflects an inherent limitation on the continued
entitlement to the exemption.” Appellant’s Br. at 28.
The Court disagrees and considers the First Circuit’s
holding instructive for the purposes of this case. In
evaluating whether the proceeds from the sale of a home
sold post-petition remain exempt, the First Circuit
concluded “that the proceeds from the sale of the home
retain the exempt status of the home itself.” In re
Cunningham, 513 F.3d 318, 320 (1st Cir. 2008). The
same principle applies here, and the permanent
exemption applies allowing for the debtor’s interest in
the residence itself under Maine’s homestead exemption, rather than the conditional exemption allowed for
the proceeds from the sale of the home.
7. Legislative Intent and Fresh Start Principles

Mr. Hull argues that applying the complete snapshot
rule to Maine’s homestead exemption would run against
the Legislature’s purpose in enacting the exemption,
which he argues was “intended to help homeowners . . .
maintain that status; but not to provide the debtor
funds for other purposes.” Appellant’s Br. at 32 (citing
In re Grindal, 30 B.R. 651, 653 n.4 (Bankr. D. Me. 1983).
He argues that the effect of this broad interpretation
“create[s] an absolute dispensation for former homeowners, increasing the allotted personal property
exemption . . . one-hundred-fold during a six (6) month
period following the sale simply because the debtor is

43a
operating under the protection of the Bankruptcy Code.”
Id. at 33. Again, as his position relies on the presumed
intention of the Maine Legislature, Mr. Hull’s argument
must be considered seriously.
Nevertheless, even if the Court viewed this case as
one involving the interpretation of the conditional
exemption under section 4422(1)(C), the Court agrees
with the Bankruptcy Court’s conclusion that “such a
result is not only permitted but required,” given that
“fresh start principles promulgated in § 522(c) override
state law exemption limitations, even definitional
limitations . . . .” Mem. of Decision at 14-15 (quoing In re
Leicht, 222 B.R. 670, 680 (1st Cir. BAP 1998)). As the
First Circuit stated in Cunningham, “[t]he efficacy of
the fresh start policy requires finality that allows a
debtor to rebuild his life without fear of lingering
creditors.” 513 F.3d at 324. As noted earlier, when
provisions of the Bankruptcy Code and state law
conflict, the provisions of the Bankruptcy Code must
prevail.
8. Conclusion

The challenge of applying state-created vanishing
exemptions to chapter 7 cases is reflected in the inconsistent approaches in the caselaw. As noted by the
Bankruptcy Court, neither approach is without flaws,
and the outcome reached by the Bankruptcy Court could
lead to what some view as unfair results in a narrow
group of cases. However, the Court agrees with the
Bankruptcy Court that the complete snapshot view is
more in line with the “fresh start principles” of the
Bankruptcy Code as well as the body of existing First
Circuit and Supreme Court caselaw. The Court therefore affirms the Bankruptcy Court’s decision to overrule
the chapter 7 trustee’s objection to the exemption.

44a
IV. CONCLUSION

The Court DENIES Nathaniel R. Hull’s appeal of the
Bankruptcy Court’s Order overruling his objection to
Jeffrey J. Rockwell’s homestead exemption (ECF No. 1
4). The Court AFFIRMS the Bankruptcy Court’s Order
overruling Nathaniel R. Hull’s objection to Jeffrey J.
Rockwell’s homestead objection in Case No. 15-20583.
SO ORDERED.

45a
APPENDIX C
UNITED STATES BANKRUPTCY COURT,
D. MAINE
————
Case No.: 15-20583
————
In Re: JEFFREY J. ROCKWELL d/b/a
Rockwell Productions f/d/b/a
Rockwell Productions, Inc.,
————
Filed 08/23/2018

Debtor.

————
Jennifer Gail Hayden, Esq., Christopher J. Keach,
James F. Molleur, Esq., Tanya Sambatakos, Esq.,
Molleur Law Office, Biddeford, ME, for Debtor.
Nathaniel R. Hull, Esq., Verrill Dana LLP, Portland,
ME, for Trustee.
————
MEMORANDUM OF DECISION

Chief Judge PETER G. CARY.
This case examines the permanence of an exemption
claim in proceeds resulting from the sale of the debtor’s
homestead in a converted chapter 7 case in a jurisdiction with a temporal limit to its homestead proceeds
exemption, also known as a “vanishing” exemption. The
applicable exemption for Maine debtors who seek to protect the proceeds from the sale of their homesteads
requires that the proceeds be reinvested in a residence
within six months of the sale. Here, Mr. Rockwell filed
for chapter 13 relief, received proceeds from the sale of
his house during the pendency of the chapter 13, but

46a
failed to reinvest all of the proceeds in a new residence
before he converted his case to one under chapter 7 and
before six months passed from the date of the sale. The
chapter 7 trustee lodged an objection to Mr. Rockwell’s
claim of exemption pursuant to Fed. R. Bankr. P.
4003(b) and a trial was held on May 22, 2018.
For the reasons set forth below, the trustee’s objection is overruled.
I.

Facts.1

In 2001, Mr. Rockwell bought the real estate and
buildings located at 24 B Street, South Portland, Maine.
When he filed for relief under chapter 13 of the Bankruptcy Code2 on August 19, 2015, he owned the property
and resided there. On his bankruptcy schedules, Mr.
Rockwell claimed he was entitled to an exemption of
$47,500 of equity in the property pursuant to the Maine
homestead exemption statute, 14 M.R.S.A. § 4422(1).
This court confirmed Mr. Rockwell’s chapter 13 plan of
reorganization in November 2015 and his plan anticipated that he would pay the holder of the first mortgage
on that property directly and would retain the B Street
property. However, by December of 2016, Mr. Rockwell
sought permission to sell the B Street property for
$160,000 and contribute any non-exempt proceeds of
the sale to his chapter 13 plan. At the hearing on the
motion to sell the B Street property, the chapter 13 trusThese facts are taken from the parties’ stipulations, Mr.
Rockwell’s May 9, 2018 declaration, the testimony provided and
exhibits admitted into evidence at the May 22, 2018 trial, and the
various filings in this matter.
2 All references to the “Code” or to specific statutory sections are
to the Bankruptcy Reform Act of 1978, as amended, 11 U.S.C.
§§ 101, et seq. All references to a “Rule” are to the Federal Rules of
Bankruptcy Procedure.
1

47a
tee, in his words, “mildly” voiced his concerns about the
sale price but expected the court to grant the motion to
sell as being a proper exercise of Mr. Rockwell’s business
judgment. On January 12, 2017, the court entered an
order authorizing Mr. Rockwell to sell the B Street property and to pay from the proceeds of the sale (1) his ordinary and customary closing expenses, (2) the balance
due to U.S. Bank, and (3) to contribute any nonexempt
proceeds of the sale to his chapter 13 plan.
The closing for the sale of the B Street property
occurred on March 6, 2017, and after the payment of the
closing costs and the first mortgage obligation, the
amount of $51,682.87 remained and was distributed
between Mr. Rockwell ($47,500) and the chapter 13
trustee ($4,182.87). The chapter 13 trustee never
objected to Mr. Rockwell’s exemption claims and on
August 7, 2017, Mr. Rockwell converted his case to one
under chapter 7. As of the conversion date, Mr. Rockwell
had spent $18,806.23 of the cash proceeds of the sale,
leaving a balance of $28,693.77.3 Upon conversion, the
Federal Rules of Bankruptcy Procedure permitted the
chapter 7 Trustee an opportunity to object to Mr.
Rockwell’s exemption claims, Fed. R. Bankr. P.
1019(2)(B), 4003(b), and on December 4, 2017, he did so
after the court granted his motion to enlarge the time to
file such objections, to which Mr. Rockwell consented.
Mr. Rockwell resided at the B Street property until
September 2017, when he established his residence at
25 Bancroft Court, Portland, Maine, which was owned
by Lorraine H. Flint. Mr. Rockwell has never held an
ownership interest in the Bancroft Court property.

Mr. Rockwell’s May 9, 2018 declaration, ¶ 10, Rockwell Trial
Exhibit G.
3

48a
II. Jurisdiction and Venue.

This court has jurisdiction of this matter pursuant to
28 U.S.C. § 1334, and the general order of reference
entered in this district pursuant to 28 U.S.C. § 157(a).
D. Me. Local R. 83.6(a). Venue here is proper pursuant
to 28 U.S.C. § 1408(1). This is a core proceeding pursuant to 28 U.S.C. §§ 157(b)(1) and (b)(2)(B).
III. Burden of Proof.

As the objecting party, the burden of proof is on the
chapter 7 trustee to establish that Mr. Rockwell is not
entitled to an exemption in the $47,500 cash proceeds.
Fed. R. Bankr. P. 4003(c); In re Gourdin, 431 B.R. 885,
891 (1st Cir. BAP 2010); see also In re Chaney, Case
No.15 20725, 2016 WL 4446007, at *1 (Bankr. D. Me.
Aug. 23, 2016); In re Toppi, 378 B.R. 9, 11 (Bankr. D.
Me. 2007), as amended (Nov. 15, 2007); In re Cole, 185
B.R. 95, 96 (Bankr. D. Me. 1995).
IV. Positions of the Parties.

The chapter 7 trustee objects to Mr. Rockwell’s
exemption claim on the basis that Mr. Rockwell failed
to reinvest the cash proceeds from the sale of his B
Street property in a new residence within six months of
the sale of the property, as required by 14 M.R.S.A.
§ 4422(1)(C) which provides: “That portion of the proceeds from any sale of property which is exempt under
this section shall be exempt for a period of six months
from the date of receipt of such proceeds for purposes of
reinvesting in a residence within that period.’’4 Given
The “proceeds” exemption in 14 M.R.S.A. § 4422(1)(C) was added
to the Maine homestead exemptions by the Maine Legislature by
P.L. 1989, c. 286, § 1. Prior to then, a debtor was permitted a
homestead exemption in real estate only, not in cash proceeds from
the sale of a residence.
4

49a
the temporal limits of the Maine exemption, the chapter
7 trustee argues, the cash proceeds lost their exempt
status when Mr. Rockwell failed to reinvest in a residence in a timely manner. Therefore, these funds must
be delivered to the chapter 7 trustee to be administered
under chapter 7 of the United States Bankruptcy Code.
Mr. Rockwell counters that the chapter 7 trustee’s
objection must be overruled because (1) the vanishing
nature of the six month rule of 14 M.R.S.A. § 4422(1)(C)
runs counter to the Code, (2) the objection disregards
controlling First Circuit authority, (3) Mr. Rockwell’s
right to a homestead exemption was fixed on the date
he filed for bankruptcy relief, and (4) Mr. Rockwell’s
investment of proceeds into the Bancroft Court property
is protected under 14 M.R.S.A. § 4422(1)(C), notwithstanding his admission that he has no ownership
interest in that property.
V. Discussion.

There is no specific controlling authority from the
United States Court of Appeals for the First Circuit on
the exact issue presented in this case and there is no
uniform approach among the courts to vanishing state
law homestead proceeds exemptions in bankruptcy. To
address the issue here this court must examine (1) the
effect the bankruptcy filing has on the debtor’s property,
(2) whether the conversion in this case is of any consequence, and, most importantly, (3) how courts treat vanishing exemptions in chapter 7 cases.5

The treatment of these exemptions in chapter 13 cases is not relevant here given that the objection to Mr. Rockwell’s exemption was
raised in the chapter 7 portion of his case.
5

50a
A. Effect of Bankruptcy on the Debtor’s Property.

Upon the commencement of a bankruptcy case, an
estate is created which encompasses all of the debtor’s
property, even property that the debtor may later seek
to claim as exempt. § 541(a)(1) and (2); Owen v. Owen,
500 U.S. 305, 308, 111 S.Ct. 1833, 114 L.Ed.2d 350
(1991); In re Reed, 184 B.R. 733, 737 n. 5 (Bankr. W.D.
Tex. 1995). The Code permits a debtor to exempt or
exclude certain property from the bankruptcy estate
which would otherwise be available for distribution to
creditors or for administrative expenses. § 522. Owen v.
Owen, 500 U.S. at 308, 111 S.Ct. 1833 (1991) (“An exemption is an interest withdrawn from the estate (and
hence from the creditors) for the benefit of the debtor.’’);
Nealon v. Matthews (In re Nealon), BAP No. MW 15035, 2016 WL 312409, at *6 (1st Cir. BAP Jan. 20, 2016).
Exemptions are critical to a fundamental underpinning
of the Code: providing a debtor the opportunity for a
fresh start. Schwab v. Reilly, 560 U.S. 770, 791, 130
S.Ct. 2652, 177 L.Ed.2d 234 (2010). Congress permitted
each of the states to adopt the federal exemption scheme
set forth at § 522(d) or to reject the federal scheme in
favor of state law exemptions. See § 522(b)(2). The
Maine legislature, along with over 30 other state legislatures, “opted out” of the federal exemptions. 14
M.R.S.A. § 4426; Hon. W.H. Brown, L. Ahern, N. Fraas
MacLean, Bankruptcy Exemption Manual, § 4:2 (2018).
Thus, a Maine debtor must look to Maine state law for
homestead exemptions in bankruptcy proceedings.
Chaney, 2016 WL 4446007, at *1. Under Maine’s homestead exemption, Mr. Rockwell can protect up to
$47,500 in real or personal property that he or his dependents uses as a residence. 14 M.R.S.A. § 4422(1)(A).
It also allows the proceeds from the sale of exempt prop-

51a
erty to retain its exempt status for six months for purposes of reinvesting in a residence. 14 M.R.S.A.
§ 4422(1)(C).
Upon filing for bankruptcy relief, Mr. Rockwell
claimed the full $47,500 exemption in his B Street property in accordance with Fed. R. Bankr. P. 4003(a) and
14 M.R.S.A. § 4422(1)(A). He then proposed a chapter 13
plan which was premised, in part, upon his retention of
the B Street property. Time passed, and circumstances
changed for Mr. Rockwell. He sought court permission
to sell the B Street property and, after the chapter 13
trustee weighed in over the treatment of the nonexempt
portion of the sale proceeds, this court approved the sale
by a final, non-appealed order. The closing occurred, and
the chapter 13 trustee accepted $4,182.87 in funds as
being the non-exempt component of the sale proceeds
while Mr. Rockwell received $47,500 as exempt proceeds. A little over five months after the sale of the B
Street property, Mr. Rockwell converted his case to one
under chapter 7 and the chapter 7 trustee was
appointed to the case. At no time during the chapter 13
portion of the case did the chapter 13 trustee challenge
the exempt status of the $47,500 proceeds. However,
four months after conversion, and after the six-month
time limitation in 14 M.R.S.A. § 4422(1)(C) expired, the
chapter 7 trustee objected to Mr. Rockwell’s exemption
in the cash proceeds. He asserts that in keeping with the
specific wording of 14 M.R.S.A. § 4422(1)(C), the passage of more than six months after the sale of the B
Street property transformed the exempt cash proceeds
into non-exempt assets which must be included in the
bankruptcy estate.

52a
B. Effect of Conversion from Chapter 13 to Chapter 7.

When Mr. Rockwell converted his case, he brought
other Code sections into play. Section 348(a) provides
that the conversion of a case from one chapter to another
under the Code does not change the date of the filing,
the case commencement, or the order for relief for purposes of the converted case.6 So although Mr. Rockwell
converted his case to chapter 7 in 2017, the 2015 filing
date is the appropriate time to use to determine his
rights to exempt proceeds. It is also an important date
in the determination of the extent of the property of the
bankruptcy estate in the converted case. In re Tracy, 28
B.R. 189, 190 n. 1 (Bankr. D. Me. 1983). Section
§ 348(f)(1)(A) provides that so longas the debtor does not
convert a case in bad faith, “property of the estate in the
converted case shall consist of property of the estate, as
of the date of filing of the petition, that remains in the
possession of or is under the control of the debtor on the
date of conversion.” Bad faith is not alleged here, therefore, prior to considering the issue of exemptions, property of Mr. Rockwell’s chapter 7 estate included the
property he scheduled in his chapter 13 filings which
was still in his possession upon conversion. When Mr.
Rockwell filed his chapter 13 case in 2015, he owned his
residence but when he converted his case to chapter 7in
2017, only $28,693.77 of the proceeds from the homestead’s sale remained in his control and only this
amount was, before considering exemptions, property of
the chapter 7 estate.7
There are exceptions to this which do not apply in this case.
§ 348(b), (c).
7 Mr. Rockwell spent $18,806.23 of the homestead proceeds before
the conversion date, leaving $28,693.77 of the homestead proceeds
in his possession.
6

53a
That leaves the ultimate question: whether the
$28,693.77 is exempt property or whether Mr.
Rockwell’s failure to reinvest it within six months of the
sale date caused its protective status to evaporate.
C. Vanishing Exemptions in Proceeds in Chapter 7
Cases.

Courts differ in how vanishing exemptions in homestead proceeds are addressed in the chapter 7 context.
See, Exemption of Proceeds of Voluntary Sale of Homestead, 46 A.L.R. 814; Danielle Nicole Rushing, Use It or
Lose It: Grappling with Classification of Post-Petition
Sale Proceeds Under Chapter Seven Bankruptcy for
Consumer Debtors in the Lone Star State, 47 St. Mary’s
L.J. 901, 915 (2016); Stephen W. Sather, Fifth Circuit
Walks Back on the Disappearing Exemption Case, Am.
Bankr. Inst. J. 38, 38 (2018). Most agree that the facts
and law in place on the petition date determine the
rights of a debtor to exemptions. White v. Stump, 266
U.S. 310, 313, 45 S.Ct. 103, 69 L.Ed. 301 (1924); Myers
v. Matley, 318 U.S. 622, 628, 63 S.Ct. 780, 87 L.Ed. 1043
(1943); In re Cunningham, 513 F.3d 318, 324 (1st Cir.
2008). This principle is part of the snap- shot rule.8 In re
“The “snap-shot” doctrine is a well-known bankruptcy principle,
calling to mind the image of a photograph or still-picture where the
subject depicted is frozen in time and unchanging. The snap-shot
doctrine provides that the rights of the debtor, and the facts and
circumstances that undergird those rights, are locked in as of the
petition date. A bankruptcy filing is a temporal event that serves to
divide a debtor’s assets, liabilities, financial transactions and transfers between those that exist or occur before the filing and those that
come into existence or occur after the filing. Different treatment is
accorded those assets, liabilities, transactions and transfers
depending on which side of the line they fall. For most purposes, it
makes sense to use the petition date as the point of separation.” In
re Stewart, 452 B.R. 726, 738–39 (Bankr. C.D. Ill. 2011).
8

54a
Awayda, 574 B.R. 692, 695 (Bankr. C.D. Ill. 2017); In re
Williams, 515 B.R. 395, 402 (Bankr. D. Mass. 2014).
However, courts disagree over the scope of the snapshot; over what exactly the snapshot captures.
Some hold that the snap-shot rule requires that
exemptions to which the debtor is entitled in homestead
proceeds must be determined by examining the exact
scope of the exemption as of the time of the bankruptcy
filing and if, post-petition, the debtor fails to reinvest the
proceeds within the time frame permitted by the state
exemption, the exemption expires. Thus, the snapshot
is a partial one and not everything is fixed precisely as
of the filing date. From this perspective, the proceeds
must lose their exempt status if not reinvested in the
relevant statutory period and then would be available to
the chapter 7 trustee to administer. In re Zibman, 268
F.3d 298 (5th Cir. 2001) provides an example of this
view. There, the chapter 7 debtors sold their residence
two and one-half months before filing for bankruptcy
relief. They did not reinvest the cash proceeds from that
sale in a residence within six months as required by the
Texas exemption law. The court concluded: “The Texas
statute that provides an exemption for proceeds from
the sale of a homestead contains a temporal element
that explicitly limits the exemption to six months. When
the Zibmans failed to reinvest the proceeds in another
Texas homestead within the statutory time period,
those proceeds lost their exemption, freeing the Trustee
to reach the proceeds as part of the bankruptcy estate.”
Id. at 305 (footnotes omitted). The court noted that “the
law and facts existing on the date of filing the bankruptcy petition determine the existence of available
exemptions, but . . . it is the entire state law applicable
on the filing date that is determinative.” Id. at 304
(emphasis in the original). Ignoring the debtors’ post-

55a
petition failure to reinvest the proceeds within the six
month term would, according to the Zibman court, eliminate an integral aspect of the Texas homestead exemption for proceeds – the requirement of reinvestment in a
residence within six months, and would ignore the purpose of the temporal limits of the proceeds law – “[t]he
object of the proceeds exemption statute was solely to
allow the claimant to invest the proceeds in another
homestead, not to protect the proceeds, in and of themselves.” Id. at 305 (quotations and emphasis omitted).9
The partial snap-shot view is not universal. Other
courts reason that the snapshot must be complete and
that the exemption in proceeds is fixed as of the filing
date, and if the statutory time frame requiring reinvestment has not expired prior to the filing of the chapter 7
case the exemption is forever preserved, notwithstanding the post-petition passage of time and failure to reinvest. In re Thomas, BKY MER 17-43367, 2018 WL
3655654 (Bankr. D. Minn. July 31, 2018), provides a
recent example of this. In Thomas, the debtor sold her
residence before filing for chapter 7 relief and claimed
proceeds from the sale exempt under Minnesota’s homestead exemption laws. The chapter 7 trustee objected on
See e.g., In re Williams, 515 B.R. 395, 409 (Bankr. D. Mass.
2014) (“[A] state law exemption defined by an innate temporal limitation shall expire pursuant to that limitation notwithstanding an
intervening bankruptcy.”); In re Stewart, 452 B.R. 726, 745 (Bankr.
C.D. Ill. 2011) (“[T]his Court holds that the exemption should be
allowed if the debtor reinvests the proceeds within the one-year
period, but denied if reinvestment does not occur even though this
determination must be made based upon what does or does not
occur postpetition.”); In re Jacobson, 676 F.3d 1193, 1199 (9th Cir.
2012) (Court held that the debtor received the proceeds subject to a
reinvestment condition and that the proceeds could thus lose their
exempt status once the reinvestment period lapsed.).
9

56a
the ground that Minnesota permitted proceeds to be
exempt so long as they are reinvested in a residence
within 12 months following the sale. Thus, the debtor
must reinvest all of the proceeds in a residence or she
would lose her exemption in them. The bankruptcy
court held that the snap-shot rule limits the exemption
to the circumstances in place at the time of filing, and
that post filing activity should not impact the debtor’s
entitlement to exempt property.10 “This Court aligns
itself with those courts that have examined the ‘snapshot rule’ based on circumstances in existence as of the
petition date to determine the lifespan of exemptions in
10 See also In re Awayda, 574 B.R. 692 (Bankr. C.D. Ill. 2017)
(Post-petition developments do not impact the debtor’s entitlement
to a properly claimed exemption.); In re Snowden, 386 B.R. 730, 734
(Bankr. C.D. Ill. 2008) (“Courts interpreting Illinois exemption laws
have traditionally followed a “snapshot” rule holding that exemptions are determined as of the date of a case filing. . . Developments
which occur after filing should not impact on the entitlement to an
exemption properly claimed at filing.”). In re Reed, 184 B.R. 733, 738
(Bankr. W.D. Tex. 1995). In Reed, prior to converting their chapter
11 case to one under chapter 7, the debtors sold their home and
received a promissory note for some of its equity. After conversion,
the note was paid and disbursed. The chapter 7 trustee commenced
an adversary proceeding to recover the disbursements claiming that
the proceeds of the note were estate property because the debtors
did not reinvest the proceeds in accordance with the time limitations of the relevant Texas homestead exemption. The court held
that “a postpetition transformation of exempt property into a form
of property which would not be exempt under state law does not
return the property to the estate.” Id.
The Reed holding is not the same as that here in Mr. Rockwell’s
case. Reed does not hold that “proceeds of the disposition of exempt
property are therefore also ‘exempt’ ”. Id. at n. 7. Rather, once property is removed from the estate it can never be restored to the estate
and the conversion of exempt property into non-exempt property
does not change that result. Id.

57a
a chapter 7 case. They would take that to mean that
generally what happens after filing should not impact
on the entitlement to an exemption properly claimed at
filing.” Id. at *3 (citations and quotations omitted).
In considering both of these approaches, this court is
aware that either is viable and both have flaws,11 but
nonetheless concludes that the complete snap-shot view
more faithfully adheres to the Code, First Circuit
authority, and the practicalities of administering a
chapter 7 case.
First, determining that the exemption in the property is frozen as of the filing date, notwithstanding the
failure of the debtor to reinvest those proceeds within
six months, when that six months date expires after the
filing date is in accord with § 522(c) and (k). Section
522(c) states that “property exempted under this section
is not liable during or after the case for any debt of the
debtor that arose, or that is determined under section
502 of this title as if such debt had arisen, before the
commencement of the case . . .’’.12 Pasquina v.
Cunningham (In re Cunningham), 513 F.3d 318, 324
(1st Cir. 2008) (“By the plain language of the statute,
11 “Ultimately, the arguments in favor of either result seemingly
devolve into circularity. Courts inclined to permit a temporal limitation find no conflict between a state exemption statute and the
Bankruptcy Code because 11 U.S.C. § 522(c) only applies to
“exempted” property, which according to the state’s definition of the
exemption in effect on the petition date, the property will eventually
cease to be by operation of law. On the other hand, courts that find
a conflict arising from temporal limitations construe 11 U.S.C.
§§ 522(b)(1), (3), and (c) to mean that property claimed exempt pursuant to a (sic) an exemption available on the petition date is
“exempted under this section,” and forever removed from the
estate.” In re Williams, 515 B.R. at 408.
12 Although there are exceptions to this, § 522(c)(1-4) and
§ 522(k)(1-2), none are relevant here.

58a
exemptions under § 522(c) persist beyond the termination of the case, making the property subject to an
exemption unavailable for the satisfaction of prepetition debt (other than for the categories of debt noted
in § 522(c) itself).’’). Section 522(k) provides that with
the exception for certain avoidance costs set forth in
§ 522(k)(1) and (2), “[p]roperty that the debtor exempts
under this section is not liable for payment of any
administrative expense.’’ Law v. Siegel, 571 U.S. 415,
422-23, 134 S.Ct. 1188, 188 L.Ed.2d 146 (2014) (“The
Bankruptcy Court thus violated § 522’s express terms
when it ordered that the $75,000 protected by Law’s
homestead exemption be made available to pay Siegel’s
attorney’s fees, an administrative expense. In doing so,
the court exceeded the limits of its authority under
§ 105(a) and its inherent powers.’’). These subsections
mean that, once property is exempted and is no longer
part of the bankruptcy estate, the Code specifically
insulates it from the reach of pre-petition creditors or
administrative claimants (with limited exceptions).
Applying the partial snap-shot view and thus permitting the expiration of exemptions postpetition would
create a subset of ephemeral exemptions which impermissibly would allow previously exempt property to be
liable for pre-petition debts and administrative
expenses, in contravention of § 522(c) and § 522(k). See,
Owen v. Owen, 500 U.S. at 308, 111 S.Ct. 1833 (“Property that is properly exempted under § 522 is (with some
exceptions) immunized against liability for prebankruptcy debts.’’).
Second, permitting the estate to be supplemented by
the cash proceeds because of a post-conversion transformation of the property runs counter to § 541(a) and the
framework of chapter 7. The starting point to determine
the extent of estate property in a chapter 7 case is the

59a
commencement date. See § 541(a)(5) (“[The bankruptcy]
estate is comprised of all the following property, wherever located and by whomever held . . . [a]ny interest in
property that would have been property of the estate if
such interest had been an interest of the debtor on the
date of the filing of the petition . . .’’).13 Though there are
a few exceptions to this general rule in chapter 7 cases14
they are limited enactments by Congress designed to
address specific and discrete exceptions.
The examples cited include certain postpetition claims being treated as though they arose
on the petition date, some property becoming
property of the estate if the debtor becomes
entitled to it within 180 days postpetition, and
actions to recover preferences and fraudulent
transfers that have look-back periods ranging
from ninety days to two years. Id. (citing 11
U.S.C §§ 502, 541(a)(5), 547, 548). The examples cited, however, are all express provisions
of the Code in which Congress explicitly directed bankruptcy courts to calculate deadlines or look at circumstances arising at some
time other than the petition date. These lim13 In contrast, estate property in a chapter 13 case includes all of
the property specified in § 541 and property and earnings the debtor
acquires after the commencement of the case but before it is closed,
dismissed, or converted. § 1306(a).
14 The bankruptcy estate also includes (1) property which a debtor
receives or is entitled to receive within 180 days of the bankruptcy
filing from inheritances, property settlements in divorces, and life
insurance benefits, (§ 541(a)(5)(A), (B) and (C)); (2) proceeds, product, offspring, rents or profits (other than the earnings of individuals) from property of the estate (§ 541(a)(6)); (3) property that the
estate acquires post-filing (§ 541(a)(7)); and (4) recoveries of preferential and fraudulent transfers (§§ 547 and 548).

60a
ited, enumerated exceptions do not support the
claim that the general rule of evaluating property of the estate and claims of exemptions as
of the petition date is discretionary.
In re Awayda, 574 B.R. at 696.
The existence of several limited exceptions does not
undermine the general rule that the chapter 7 estate is
captured at the commencement of the case and the
exemptions defined at that time are immutable despite
post-petition events.15
Third, the complete snap-shot approach coexists with
the holding of In re Cunningham, 513 F.3d 318 (1st
Cir. 2008), which, though not specifically on point because the exemption at issue was not a vanishing
exemption, provides helpful and relevant guidance. In
Cunningham, a creditor holding a state court judgment
15 See also In re Reed, 184 B.R. 733, 737–38 (Bankr. W.D. Tex.
1995) (“The majority of courts, however, hold that a postpetition
change in the character of property properly claimed as exempt will
not change the status of that property, relying on the principle that
once property is exempt, it is exempt forever and nothing occurring
postpetition can change that fact; In re Peterson, 897 F.2d 935, 937
(8th Cir. 1990) (debtor’s postpetition death did not cause his homestead exemption to lapse); Payne v. Wood, 775 F.2d 202, 204 (7th
Cir. 1985) (insurance proceeds of destroyed exempt property did not
become property of the estate); Lasich v. Estate of A.N. Wickstrom
(Matter of Wickstrom), 113 B.R. 339, 343–44 (Bankr. W.D.
Mich.1990) (debtor’s postpetition death did not cause exempt
worker’s compensation proceeds to lapse); In re Whitman, 106 B.R.
654, 656–57 (Bankr. S.D. Cal.1989) (conversion of homestead to proceeds postpetition does not cause proceeds to become property of the
estate); In re Harlan, 32 B.R. 91, 92–93 (Bankr.W.D.Tex. 1983)
(same). The thrust of these cases is that property which is deemed
to be exempt is deemed, as of that point, no longer to be property of
the estate, so that its subsequent transformation does not restore it
to the estate.”).

61a
against a chapter 7 debtor filed a motion instate court
seeking a determination that the debtor’s exemption in
certain homestead property would expire upon the postpetition sale of the house and the resulting conversion
of the debtor’s interest in the homestead into cash proceeds. Id. at 322. The United States Court of Appeals for
the First Circuit affirmed the decision below and held
that the proceeds were exempt. Id. at 325. The debtor’s
homestead exemption claim, which survived a challenge
by the judgment creditor, permanently immunized the
homestead from pre-petition debts by removing the proceeds from the bankruptcy estate. Id. at 324. The
Cunningham court held that § 522(c) did not confer a
conditional exemption subject to post-petition events. To
hold otherwise, the court noted, would undermine the
basic principle that the bankruptcy law exemptions are
determined when a petition is filed and that a debtor is
entitled to a fresh start permit ting a debtor to rebuild
his life without fear of tarrying creditors. Id.
Advocates of the partial snap-shot approach caution
that “freezing” exemptions at the time of filing and
applying the complete snap-shot approach results in the
expansion of a state created exemption from a temporary exemption, requiring reinvestment within an allotted time, to a permanent exemption.16 While that may
be, so such a result is not only permitted but required.
In re Weinstein, 164 F.3d 677, 683 (1st Cir. 1999)
At least one court reasons that is not so. “The Bankruptcy Code
does not ‘change’ the state exemption in homestead proceeds into a
‘permanent’ exemption one, since the exemption for bankruptcy
purposes only affects pre-petition creditors. Post-petition creditors
are not bound by the debtor’s discharge, and therefore if the Debtors
fail to reinvest the proceeds in a new homestead, their post-petition
creditors could seek to collect against the proceeds.” In re Lantz, 446
B.R. 850, 859 (Bankr. N.D. Ill. 2011).
16

62a
(Massachusetts homestead statute was preempted by
the Code to the extent that the state statute conflicted
with the Code); In re Leicht, 222 B.R. 670, 680 (1st Cir.
BAP 1998) (“In the exemption arena, federal courts
have, time and again, concluded that the federal fresh
start principles promulgated in § 522(c) override state
law exemption limitations, even definitional limitations. . . . Indeed, the 1994 amendments to § 522(f) make
it clear that Congress intended a debtor’s exemptions
(whether state or federal law in their source) to operate
in particular, federal-law-ways to advance the policies
embodied in the bankruptcy fresh start.”); In re Dubois,
306 B.R. 423, 428 (Bankr. D. Me. 2004).17
VI. Conclusion.

For these reasons, this court concludes that in order
to protect the integrity of the Code (e.g. § 522(c),
§ 522(k), § 541) and to follow the guidance of
Cunningham, the complete snapshot rule should be
applied. Therefore, the chapter 7 trustee’s objection to
Mr. Rockwell’s homestead exemption is overruled. The
17 Though not determinative of the conclusion reached by the
court, there is also a pragmatic reason against adopting the partial
snap-shot approach. “If the rule were that property must maintain
its exempt status until case closure, chapter 7 trustees would be
incentivized to keep cases open as long as possible and to run out
the clock on homestead proceeds exemptions and other exemptions
with built-in time limits. Trustees might also hold cases open, waiting to see if debtors sell exempt property or withdraw funds from
exempt accounts, only to seek turnover of proceeds or funds once
converted to a nonexempt state. No policy is served by encouraging
such activities, and the impact would be impractical, inefficient, and
contrary to the Code’s command that trustees close cases “expeditiously.” 11 U.S.C. § 704(a)(1).” In re Awayda, 574 B.R. at 697. Other
courts have found this “concern too speculative” and unpersuasive.
In re Jacobson, 676 F.3d 1193, 1200 (9th Cir. 2012).

63a
cash proceeds from the sale of the B Street property
that remained in Mr. Rockwell’s control as of the conversion date ($28,693.77) are exempt and beyond the
reach of the chapter 7 trustee, notwithstanding Mr.
Rockwell’s failure to reinvest them within six months
of the sale of his homestead.18
A separate order shall enter.

Given this holding, the court does not need to address Mr.
Rockwell’s other arguments, including whether 14 M.R.S.A.
§ 4422(c)(1) permits a debtor to invest in property in which he has
no ownership interest or whether moving expenses or tree removal
expenditures constitute “reinvestment” in a residence.
18

64a
APPENDIX D
1. 11 U.S.C. 522:
Exemptions
(a)

In this section—

(1) “dependent” includes spouse, whether or
not actually dependent; and
(2) “value” means fair market value as of the
date of the filing of the petition or, with respect to
property that becomes property of the estate after
such date, as of the date such property becomes property of the estate.
(b)(1) Notwithstanding section 541 of this title, an
individual debtor may exempt from property of the estate the property listed in either paragraph (2) or, in the
alternative, paragraph (3) of this subsection. In joint
cases filed under section 302 of this title and individual
cases filed under section 301 or 303 of this title by or
against debtors who are husband and wife, and whose
estates are ordered to be jointly administered under
Rule 1015(b) of the Federal Rules of Bankruptcy Procedure, one debtor may not elect to exempt property listed
in paragraph (2) and the other debtor elect to exempt
property listed in paragraph (3) of this subsection. If the
parties cannot agree on the alternative to be elected,
they shall be deemed to elect paragraph (2), where such
election is permitted under the law of the jurisdiction
where the case is filed.
(2) Property listed in this paragraph is property
that is specified under subsection (d), unless the
State law that is applicable to the debtor under paragraph (3)(A) specifically does not so authorize.

65a
(3)

Property listed in this paragraph is—

(A) subject to subsections (o) and (p), any
property that is exempt under Federal law, other
than subsection (d) of this section, or State or local law that is applicable on the date of the filing
of the petition to the place in which the debtor’s
domicile has been located for the 730 days immediately preceding the date of the filing of the
petition or if the debtor’s domicile has not been
located in a single State for such 730-day period,
the place in which the debtor’s domicile was
located for 180 days immediately preceding the
730-day period or for a longer portion of such 180day period than in any other place;
(B) any interest in property in which the
debtor had, immediately before the commencement of the case, an interest as a tenant by the
entirety or joint tenant to the extent that such
interest as a tenant by the entirety or joint tenant
is exempt from process under applicable nonbankruptcy law; and
(C) retirement funds to the extent that
those funds are in a fund or account that is
exempt from taxation under section 401, 403,
408, 408A, 414, 457, or 501(a) of the Internal Revenue Code of 1986.
If the effect of the domiciliary requirement under subparagraph (A) is to render the debtor ineligible for any exemption, the debtor may elect
to exempt property that is specified under subsection (d).

66a
(4) For purposes of paragraph (3)(C) and subsection (d)(12), the following shall apply:
(A) If the retirement funds are in a retirement fund that has received a favorable determination under section 7805 of the Internal Revenue Code of 1986, and that determination is in
effect as of the date of the filing of the petition in
a case under this title, those funds shall be presumed to be exempt from the estate.
(B) If the retirement funds are in a retirement fund that has not received a favorable determination under such section 7805, those funds
are exempt from the estate if the debtor demonstrates that—
(i) no prior determination to the contrary
has been made by a court or the Internal Revenue Service; and
(ii)(I) the retirement fund is in substantial compliance with the applicable requirements of the Internal Revenue Code of 1986;
or
(II) the retirement fund fails to be in
substantial compliance with the applicable requirements of the Internal Revenue
Code of 1986 and the debtor is not materially responsible for that failure.
(C) A direct transfer of retirement funds
from 1 fund or account that is exempt from taxation under section 401, 403, 408, 408A, 414, 457,
or 501(a) of the Internal Revenue Code of 1986,
under section 401(a)(31) of the Internal Revenue
Code of 1986, or otherwise, shall not cease to

67a
qualify for exemption under paragraph (3)(C) or
subsection (d)(12) by reason of such direct transfer.
(D)(i) Any distribution that qualifies as an
eligible rollover distribution within the meaning
of section 402(c) of the Internal Revenue Code of
1986 or that is described in clause (ii) shall not
cease to qualify for exemption under paragraph
(3)(C) or subsection (d)(12) by reason of such distribution.
(ii) A distribution described in this
clause is an amount that—
(I) has been distributed from a fund
or account that is exempt from taxation
under section 401, 403, 408, 408A, 414,
457, or 501(a) of the Internal Revenue
Code of 1986; and
(II) to the extent allowed by law, is
deposited in such a fund or account not
later than 60 days after the distribution of
such amount.
(c) Unless the case is dismissed, property exempted under this section is not liable during or after
the case for any debt of the debtor that arose, or that is
determined under section 502 of this title as if such debt
had arisen, before the commencement of the case,
except—
(1) a debt of a kind specified in paragraph (1) or
(5) of section 523(a) (in which case, notwithstanding
any provision of applicable nonbankruptcy law to the
contrary, such property shall be liable for a debt of a
kind specified in such paragraph);

68a
(2)

a debt secured by a lien that is—

(A)(i) not avoided under subsection (f) or (g)
of this section or under section 544, 545, 547, 548,
549, or 724(a) of this title; and
(ii) not void under section 506(d) of this
title; or
(B)
filed;

a tax lien, notice of which is properly

(3) a debt of a kind specified in section 523(a)(4)
or 523(a)(6) of this title owed by an institutionaffiliated party of an insured depository institution
to a Federal depository institutions regulatory
agency acting in its capacity as conservator, receiver,
or liquidating agent for such institution; or
(4) a debt in connection with fraud in the obtaining or providing of any scholarship, grant, loan,
tuition, discount, award, or other financial assistance for purposes of financing an education at an
institution of higher education (as that term is
defined in section 101 of the Higher Education Act of
1965 (20 U.S.C. 1001)).
(d) The following property may be exempted under
subsection (b)(2) of this section:
(1) The debtor’s aggregate interest, not to
exceed $25,150 [originally “$15,000”, adjusted effective April 1, 2019] in value, in real property or personal property that the debtor or a dependent of the
debtor uses as a residence, in a cooperative that
owns property that the debtor or a dependent of the
debtor uses as a residence, or in a burial plot for the
debtor or a dependent of the debtor.

69a
(2) The debtor’s interest, not to exceed $4,000
[originally “$2,400”, adjusted effective April 1, 2019]
in value, in one motor vehicle.
(3) The debtor’s interest, not to exceed $625
[originally “$400”, adjusted effective April 1, 2019] in
value in any particular item or $13,400 [originally
“$8,000”, adjusted effective April 1, 2019] in aggregate value, in household furnishings, household
goods, wearing apparel, appliances, books, animals,
crops, or musical instruments, that are held primarily for the personal, family, or household use of the
debtor or a dependent of the debtor.
(4) The debtor’s aggregate interest, not to exceed $1,700 [originally “$1,000”, adjusted effective
April 1, 2019] in value, in jewelry held primarily for
the personal, family, or household use of the debtor
or a dependent of the debtor.
(5) The debtor’s aggregate interest in any property, not to exceed in value $1,325 [originally “$800”,
adjusted effective April 1, 2019] plus up to $12,575
[originally “$7,500”, adjusted effective April 1, 2019]
of any unused amount of the exemption provided under paragraph (1) of this subsection.
(6) The debtor’s aggregate interest, not to exceed $2,525 [originally “$1,500”, adjusted effective
April 1, 2019] in value, in any implements, professional books, or tools, of the trade of the debtor or the
trade of a dependent of the debtor.
(7) Any unmatured life insurance contract
owned by the debtor, other than a credit life insurance contract.

70a
(8) The debtor’s aggregate interest, not to
exceed in value $13,400 [originally “$8,000”,
adjusted effective April 1, 2019] less any amount of
property of the estate transferred in the manner
specified in section 542(d) of this title, in any accrued
dividend or interest under, or loan value of, any
unmatured life insurance contract owned by the
debtor under which the insured is the debtor or an
individual of whom the debtor is a dependent.
(9) Professionally prescribed health aids for
the debtor or a dependent of the debtor.
(10)

The debtor’s right to receive—

(A) a social security benefit, unemployment
compensation, or a local public assistance
benefit;
(B)

a veterans’ benefit;

(C) a disability, illness, or unemployment
benefit;
(D) alimony, support, or separate maintenance, to the extent reasonably necessary for the support of the debtor and any dependent of the debtor;
(E) a payment under a stock bonus, pension,
profitsharing, annuity, or similar plan or contract on account of illness, disability, death, age,
or length of service, to the extent reasonably necessary for the support of the debtor and any
dependent of the debtor, unless—
(i) such plan or contract was established
by or under the auspices of an insider that
employed the debtor at the time the debtor’s
rights under such plan or contract arose;

71a
(ii) such payment is on account of age or
length of service; and
(iii) such plan or contract does not qualify under section 401(a), 403(a), 403(b), or 408
of the Internal Revenue Code of 1986.
(11) The debtor’s right to receive, or property
that is traceable to—
(A) an award under a crime victim’s reparation law;
(B) a payment on account of the wrongful
death of an individual of whom the debtor was a
dependent, to the extent reasonably necessary
for the support of the debtor and any dependent
of the debtor;
(C) a payment under a life insurance contract that insured the life of an individual of
whom the debtor was a dependent on the date of
such individual’s death, to the extent reasonably
necessary for the support of the debtor and any
dependent of the debtor;
(D) a payment, not to exceed $25,150 [originally “$15,000”, adjusted effective April 1, 2019],
on account of personal bodily injury, not including pain and suffering or compensation for actual
pecuniary loss, of the debtor or an individual of
whom the debtor is a dependent; or
(E) a payment in compensation of loss of
future earnings of the debtor or an individual of
whom the debtor is or was a dependent, to the
extent reasonably necessary for the support of
the debtor and any dependent of the debtor.

72a
(12) Retirement funds to the extent that those
funds are in a fund or account that is exempt from
taxation under section 401, 403, 408, 408A, 414, 457,
or 501(a) of the Internal Revenue Code of 1986.
(e) A waiver of an exemption executed in favor of a
creditor that holds an unsecured claim against the
debtor is unenforceable in a case under this title with
respect to such claim against property that the debtor
may exempt under subsection (b) of this section. A
waiver by the debtor of a power under subsection (f) or
(h) of this section to avoid a transfer, under subsection
(g) or (i) of this section to exempt property, or under subsection (i) of this section to recover property or to preserve a transfer, is unenforceable in a case under this
title.
(f)(1) Notwithstanding any waiver of exemptions
but subject to paragraph (3), the debtor may avoid the
fixing of a lien on an interest of the debtor in property to
the extent that such lien impairs an exemption to which
the debtor would have been entitled under subsection
(b) of this section, if such lien is—
(A) a judicial lien, other than a judicial lien
that secures a debt of a kind that is specified in
section 523(a)(5); or
(B) a nonpossessory, nonpurchase-money
security interest in any—
(i) household furnishings, household
goods, wearing apparel, appliances, books,
animals, crops, musical instruments, or jewelry that are held primarily for the personal,
family, or household use of the debtor or a
dependent of the debtor;

73a
(ii) implements, professional books, or
tools, of the trade of the debtor or the trade of
a dependent of the debtor; or
(iii) professionally prescribed health
aids for the debtor or a dependent of the
debtor.
(2)(A) For the purposes of this subsection, a lien
shall be considered to impair an exemption to the
extent that the sum of—
(i)
(ii)

the lien;
all other liens on the property; and

(iii) the amount of the exemption that
the debtor could claim if there were no liens
on the property;
exceeds the value that the debtor’s interest
in the property would have in the absence of
any liens.
(B) In the case of a property subject to more
than 1 lien, a lien that has been avoided shall not
be considered in making the calculation under
subparagraph (A) with respect to other liens.
(C) This paragraph shall not apply with
respect to a judgment arising out of a mortgage
foreclosure.
(3) In a case in which State law that is applicable to the debtor—
(A) permits a person to voluntarily waive a
right to claim exemptions under subsection (d) or
prohibits a debtor from claiming exemptions
under subsection (d); and

74a
(B) either permits the debtor to claim
exemptions under State law without limitation
in amount, except to the extent that the debtor
has permitted the fixing of a consensual lien on
any property or prohibits avoidance of a consensual lien on property otherwise eligible to be
claimed as exempt property;
the debtor may not avoid the fixing of a lien on
an interest of the debtor or a dependent of the
debtor in property if the lien is a nonpossessory,
nonpurchase-money security interest in implements, professional books, or tools of the trade
of the debtor or a dependent of the debtor or
farm animals or crops of the debtor or a dependent of the debtor to the extent the value of such
implements, professional books, tools of the
trade, animals, and crops exceeds $6,825 [originally “$5,000”, adjusted effective April 1,
2019].
(4)(A) Subject to subparagraph (B), for purposes of paragraph (1)(B), the term “household
goods” means—
(i)

clothing;

(ii)

furniture;

(iii)

appliances;

(iv)

1 radio;

(v)

1 television;

(vi)

1 VCR;

(vii)

linens;

(viii)

china;

75a
(ix)

crockery;

(x)

kitchenware;

(xi) educational materials and educational equipment primarily for the use of minor dependent children of the debtor;
(xii)

medical equipment and supplies;

(xiii) furniture exclusively for the use of
minor children, or elderly or disabled dependents of the debtor;
(xiv) personal effects (including the toys
and hobby equipment of minor dependent
children and wedding rings) of the debtor and
the dependents of the debtor; and
(xv) 1 personal computer and related
equipment.
(B) The term “household goods” does not
include—
(i) works of art (unless by or of the
debtor, or any relative of the debtor);
(ii) electronic entertainment equipment
with a fair market value of more than $725
[originally “$500”, adjusted effective April 1,
2019] in the aggregate (except 1 television, 1
radio, and 1 VCR);
(iii) items acquired as antiques with a
fair market value of more than $725 [originally “$500”, adjusted effective April 1, 2019]
in the aggregate;
(iv) jewelry with a fair market value of
more than $725 [originally “$500”, adjusted

76a
effective April 1, 2019] in the aggregate
(except wedding rings); and
(v) a computer (except as otherwise provided for in this section), motor vehicle
(including a tractor or lawn tractor), boat, or
a motorized recreational device, conveyance,
vehicle, watercraft, or aircraft.
(g) Notwithstanding sections 550 and
551 of this title, the debtor may exempt under
subsection (b) of this section property that the
trustee recovers under section 510(c)(2), 542,
543, 550, 551, or 553 of this title, to the extent
that the debtor could have exempted such
property under subsection (b) of this section if
such property had not been transferred, if—
(1)(A) such transfer was not a voluntary transfer of such property by the debtor; and
or

(B)

the debtor did not conceal such property;

(2) the debtor could have avoided such transfer
under subsection (f)(1)(B) of this section.
(h) The debtor may avoid a transfer of property of
the debtor or recover a setoff to the extent that the
debtor could have exempted such property under subsection (g)(1) of this section if the trustee had avoided
such transfer, if—
(1) such transfer is avoidable by the trustee under section 544, 545, 547, 548, 549, or 724(a) of this
title or recoverable by the trustee under section 553
of this title; and

77a
(2) the trustee does not attempt to avoid such
transfer.
(i)(1) If the debtor avoids a transfer or recovers a
setoff under subsection (f) or (h) of this section, the
debtor may recover in the manner prescribed by, and
subject to the limitations of, section 550 of this title, the
same as if the trustee had avoided such transfer, and
may exempt any property so recovered under subsection
(b) of this section.
(2) Notwithstanding section 551 of this title, a
transfer avoided under section 544, 545, 547, 548,
549, or 724(a) of this title, under subsection (f) or (h)
of this section, or property recovered under section
553 of this title, may be preserved for the benefit of
the debtor to the extent that the debtor may exempt
such property under subsection (g) of this section or
paragraph (1) of this subsection.
(j) Notwithstanding subsections (g) and (i) of this
section, the debtor may exempt a particular kind of
property under subsections (g) and (i) of this section only
to the extent that the debtor has exempted less property
in value of such kind than that to which the debtor is
entitled under subsection (b) of this section.
(k) Property that the debtor exempts under this
section is not liable for payment of any administrative
expense except—
(1) the aliquot share of the costs and expenses
of avoiding a transfer of property that the debtor
exempts under subsection (g) of this section, or of
recovery of such property, that is attributable to the
value of the portion of such property exempted in
relation to the value of the property recovered; and

78a
(2) any costs and expenses of avoiding a transfer under subsection (f) or (h) of this section, or of
recovery of property under subsection (i)(1) of this
section, that the debtor has not paid.
(l) The debtor shall file a list of property that the
debtor claims as exempt under subsection (b) of this section. If the debtor does not file such a list, a dependent
of the debtor may file such a list, or may claim property
as exempt from property of the estate on behalf of the
debtor. Unless a party in interest objects, the property
claimed as exempt on such list is exempt.
(m) Subject to the limitation in subsection (b), this
section shall apply separately with respect to each
debtor in a joint case.
(n) For assets in individual retirement accounts
described in section 408 or 408A of the Internal Revenue
Code of 1986, other than a simplified employee pension
under section 408(k) of such Code or a simple retirement
account under section 408(p) of such Code, the aggregate value of such assets exempted under this section,
without regard to amounts attributable to rollover contributions under section 402(c), 402(e)(6), 403(a)(4),
403(a)(5), and 403(b)(8) of the Internal Revenue Code of
1986, and earnings thereon, shall not exceed $1,362,800
[originally “$1,000,000”, adjusted effective April 1, 2019]
in a case filed by a debtor who is an individual, except
that such amount may be increased if the interests of
justice so require.
(o) For purposes of subsection (b)(3)(A), and notwithstanding subsection (a), the value of an interest
in—

79a
(1) real or personal property that the debtor or
a dependent of the debtor uses as a residence;
(2) a cooperative that owns property that the
debtor or a dependent of the debtor uses as a residence;
(3) a burial plot for the debtor or a dependent of
the debtor; or
(4) real or personal property that the debtor or
a dependent of the debtor claims as a homestead;
shall be reduced to the extent that such value is
attributable to any portion of any property that the
debtor disposed of in the 10-year period ending on
the date of the filing of the petition with the intent to
hinder, delay, or defraud a creditor and that the
debtor could not exempt, or that portion that the
debtor could not exempt, under subsection (b), if on
such date the debtor had held the property so disposed of.
(p)(1) Except as provided in paragraph (2) of this
subsection and sections 544 and 548, as a result of electing under subsection (b)(3)(A) to exempt property under
State or local law, a debtor may not exempt any amount
of interest that was acquired by the debtor during the
1215-day period preceding the date of the filing of the
petition that exceeds in the aggregate $170,350 [originally “$125,000”, adjusted effective April 1, 2019] in
value in—
(A) real or personal property that the debtor
or a dependent of the debtor uses as a residence;
(B) a cooperative that owns property that
the debtor or a dependent of the debtor uses as a
residence;

80a
(C) a burial plot for the debtor or a dependent of the debtor; or
(D) real or personal property that the debtor
or dependent of the debtor claims as a homestead.
(2)(A) The limitation under paragraph (1) shall
not apply to an exemption claimed under subsection
(b)(3)(A) by a family farmer for the principal residence of such farmer.
(B) For purposes of paragraph (1), any
amount of such interest does not include any interest transferred from a debtor’s previous principal residence (which was acquired prior to the
beginning of such 1215-day period) into the
debtor’s current principal residence, if the
debtor’s previous and current residences are
located in the same State.
(q)(1) As a result of electing under subsection
(b)(3)(A) to exempt property under State or local law, a
debtor may not exempt any amount of an interest in
property described in subparagraphs (A), (B), (C), and
(D) of subsection (p)(1) which exceeds in the aggregate
$170,350 [originally “$125,000”, adjusted effective April
1, 2019] if—
(A) the court determines, after notice and a
hearing, that the debtor has been convicted of a
felony (as defined in section 3156 of title 18),
which under the circumstances, demonstrates
that the filing of the case was an abuse of the
provisions of this title; or
(B)

the debtor owes a debt arising from—

81a
(i) any violation of the Federal securities
laws (as defined in section 3(a)(47) of the
Securities Exchange Act of 1934), any State
securities laws, or any regulation or order
issued under Federal securities laws or State
securities laws;
(ii) fraud, deceit, or manipulation in a
fiduciary capacity or in connection with the
purchase or sale of any security registered
under section 12 or 15(d) of the Securities
Exchange Act of 1934 or under section 6 of the
Securities Act of 1933;
(iii) any civil remedy under section 1964
of title 18; or
(iv) any criminal act, intentional tort, or
willful or reckless misconduct that caused
serious physical injury or death to another
individual in the preceding 5 years.
(2) Paragraph (1) shall not apply to the extent
the amount of an interest in property described in
subparagraphs (A), (B), (C), and (D) of subsection
(p)(1) is reasonably necessary for the support of the
debtor and any dependent of the debtor.
2. 11 U.S.C. 541:
Property of the estate
(a) The commencement of a case under section 301,
302, or 303 of this title creates an estate. Such estate is
comprised of all the following property, wherever
located and by whomever held:
(1) Except as provided in subsections (b) and
(c)(2) of this section, all legal or equitable interests of

82a
the debtor in property as of the commencement of
the case.
(2) All interests of the debtor and the debtor’s
spouse in community property as of the commencement of the case that is—
(A) under the sole, equal, or joint management and control of the debtor; or
(B) liable for an allowable claim against the
debtor, or for both an allowable claim against the
debtor and an allowable claim against the
debtor’s spouse, to the extent that such interest
is so liable.
(3) Any interest in property that the trustee
recovers under section 329(b), 363(n), 543, 550, 553,
or 723 of this title.
(4) Any interest in property preserved for the
benefit of or ordered transferred to the estate under
section 510(c) or 551 of this title.
(5) Any interest in property that would have
been property of the estate if such interest had been
an interest of the debtor on the date of the filing of
the petition, and that the debtor acquires or becomes
entitled to acquire within 180 days after such date—
(A)

by bequest, devise, or inheritance;

(B) as a result of a property settlement
agreement with the debtor’s spouse, or of an
interlocutory or final divorce decree; or
(C) as a beneficiary of a life insurance policy
or of a death benefit plan.

83a
(6) Proceeds, product, offspring, rents, or profits
of or from property of the estate, except such as are
earnings from services performed by an individual
debtor after the commencement of the case.
(7) Any interest in property that the estate
acquires after the commencement of the case.
(b)

Property of the estate does not include—

(1) any power that the debtor may exercise
solely for the benefit of an entity other than the
debtor;
(2) any interest of the debtor as a lessee under
a lease of nonresidential real property that has terminated at the expiration of the stated term of such
lease before the commencement of the case under
this title, and ceases to include any interest of the
debtor as a lessee under a lease of nonresidential
real property that has terminated at the expiration
of the stated term of such lease during the case;
(3) any eligibility of the debtor to participate in
programs authorized under the Higher Education
Act of 1965 (20 U.S.C. 1001 et seq.; 42 U.S.C. 2751
et seq.), or any accreditation status or State licensure of the debtor as an educational institution;
(4) any interest of the debtor in liquid or gaseous hydrocarbons to the extent that—
(A)(i) the debtor has transferred or has
agreed to transfer such interest pursuant to a farmout agreement or any written agreement
directly related to a farmout agreement; and
(ii) but for the operation of this paragraph, the estate could include the interest

84a
referred to in clause (i) only by virtue of section 365 or 544(a)(3) of this title; or
(B)(i) the debtor has transferred such interest pursuant to a written conveyance of a production payment to an entity that does not participate in the operation of the property from which
such production payment is transferred; and
(ii) but for the operation of this paragraph, the estate could include the interest
referred to in clause (i) only by virtue of
section 365 or 542 of this title;
(5) funds placed in an education individual
retirement account (as defined in section 530(b)(1) of
the Internal Revenue Code of 1986) not later than
365 days before the date of the filing of the petition
in a case under this title, but—
(A) only if the designated beneficiary of such
account was a child, stepchild, grandchild, or
stepgrandchild of the debtor for the taxable year
for which funds were placed in such account;
(B)

only to the extent that such funds—

(i) are not pledged or promised to any
entity in connection with any extension of
credit; and
(ii) are not excess contributions (as
described in section 4973(e) of the Internal
Revenue Code of 1986); and
(C) in the case of funds placed in all such
accounts having the same designated beneficiary
not earlier than 720 days nor later than 365 days
before such date, only so much of such funds as

85a
does not exceed $6,825 [originally “$5,000”,
adjusted effective April 1, 2019];
(6) funds used to purchase a tuition credit or
certificate or contributed to an account in accordance
with section 529(b)(1)(A) of the Internal Revenue
Code of 1986 under a qualified State tuition program
(as defined in section 529(b)(1) of such Code) not
later than 365 days before the date of the filing of the
petition in a case under this title, but—
(A) only if the designated beneficiary of the
amounts paid or contributed to such tuition program was a child, stepchild, grandchild, or
stepgrandchild of the debtor for the taxable year
for which funds were paid or contributed;
(B) with respect to the aggregate amount
paid or contributed to such program having the
same designated beneficiary, only so much of
such amount as does not exceed the total contributions permitted under section 529(b)(6) of such
Code with respect to such beneficiary, as
adjusted beginning on the date of the filing of the
petition in a case under this title by the annual
increase or decrease (rounded to the nearest
tenth of 1 percent) in the education expenditure
category of the Consumer Price Index prepared
by the Department of Labor; and
(C) in the case of funds paid or contributed
to such program having the same designated
beneficiary not earlier than 720 days nor later
than 365 days before such date, only so much of
such funds as does not exceed $6,825 [originally
“$5,000”, adjusted effective April 1, 2019];

86a
(7)

any amount—

(A) withheld by an employer from the wages
of employees for payment as contributions—
(i)

to—

(I) an employee benefit plan that is
subject to title I of the Employee Retirement Income Security Act of 1974 or under
an employee benefit plan which is a governmental plan under section 414(d) of the
Internal Revenue Code of 1986;
(II) a deferred compensation plan
under section 457 of the Internal Revenue
Code of 1986; or
(III) a tax-deferred annuity under
section 403(b) of the Internal Revenue
Code of 1986;
except that such amount under this subparagraph shall not constitute disposable income as defined in section
1325(b)(2); or
(ii) to a health insurance plan regulated
by State law whether or not subject to such
title; or
(B) received by an employer from employees
for payment as contributions—
(i)

to—

(I) an employee benefit plan that is
subject to title I of the Employee Retirement Income Security Act of 1974 or under
an employee benefit plan which is a

87a
governmental plan under section 414(d) of
the Internal Revenue Code of 1986;
(II) a deferred compensation plan
under section 457 of the Internal Revenue
Code of 1986; or
(III) a tax-deferred annuity under
section 403(b) of the Internal Revenue
Code of 1986;
except that such amount under this subparagraph shall not constitute disposable income, as defined in section
1325(b)(2); or
(ii) to a health insurance plan regulated
by State law whether or not subject to such
title;
(8) subject to subchapter III of chapter 5, any
interest of the debtor in property where the debtor
pledged or sold tangible personal property (other
than securities or written or printed evidences of
indebtedness or title) as collateral for a loan or
advance of money given by a person licensed under
law to make such loans or advances, where—
(A) the tangible personal property is in the
possession of the pledgee or transferee;
(B) the debtor has no obligation to repay the
money, redeem the collateral, or buy back the
property at a stipulated price; and
(C) neither the debtor nor the trustee have
exercised any right to redeem provided under the
contract or State law, in a timely manner as provided under State law and section 108(b);

88a
(9) any interest in cash or cash equivalents that
constitute proceeds of a sale by the debtor of a money
order that is made—
(A) on or after the date that is 14 days prior
to the date on which the petition is filed; and
(B) under an agreement with a money order
issuer that prohibits the commingling of such
proceeds with property of the debtor (notwithstanding that, contrary to the agreement, the
proceeds may have been commingled with property of the debtor),
unless the money order issuer had not taken
action, prior to the filing of the petition, to
require compliance with the prohibition; or
(10) funds placed in an account of a qualified
ABLE program (as defined in section 529A(b) of the
Internal Revenue Code of 1986) not later than 365
days before the date of the filing of the petition in a
case under this title, but—
(A) only if the designated beneficiary of such
account was a child, stepchild, grandchild, or
stepgrandchild of the debtor for the taxable year
for which funds were placed in such account;
(B)

only to the extent that such funds—

(i) are not pledged or promised to any
entity in connection with any extension of
credit; and
(ii) are not excess contributions (as
described in section 4973(h) of the Internal
Revenue Code of 1986); and

89a
(C) in the case of funds placed in all such
accounts having the same designated beneficiary
not earlier than 720 days nor later than 365 days
before such date, only so much of such funds as
does not exceed $6,825 [originally “$6,225”,
adjusted effective April 1, 2019].
Paragraph (4) shall not be construed to exclude
from the estate any consideration the debtor
retains, receives, or is entitled to receive for
transferring an interest in liquid or gaseous hydrocarbons pursuant to a farmout agreement.
(c)(1) Except as provided in paragraph (2) of this
subsection, an interest of the debtor in property becomes
property of the estate under subsection (a)(1), (a)(2), or
(a)(5) of this section notwithstanding any provision in
an agreement, transfer instrument, or applicable nonbankruptcy law—
(A) that restricts or conditions transfer of
such interest by the debtor; or
(B) that is conditioned on the insolvency or
financial condition of the debtor, on the commencement of a case under this title, or on the
appointment of or taking possession by a trustee
in a case under this title or a custodian before
such commencement, and that effects or gives an
option to effect a forfeiture, modification, or termination of the debtor’s interest in property.
(2) A restriction on the transfer of a beneficial
interest of the debtor in a trust that is enforceable
under applicable nonbankruptcy law is enforceable
in a case under this title.

90a
(d) Property in which the debtor holds, as of the
commencement of the case, only legal title and not an
equitable interest, such as a mortgage secured by real
property, or an interest in such a mortgage, sold by the
debtor but as to which the debtor retains legal title to
service or supervise the servicing of such mortgage or
interest, becomes property of the estate under subsection (a)(1) or (2) of this section only to the extent of the
debtor’s legal title to such property, but not to the extent
of any equitable interest in such property that the
debtor does not hold.
(e) In determining whether any of the relationships specified in paragraph (5)(A) or (6)(A) of subsection (b) exists, a legally adopted child of an individual
(and a child who is a member of an individual’s household, if placed with such individual by an authorized
placement agency for legal adoption by such individual),
or a foster child of an individual (if such child has as the
child’s principal place of abode the home of the debtor
and is a member of the debtor’s household) shall be
treated as a child of such individual by blood.
(f) Notwithstanding any other provision of this
title, property that is held by a debtor that is a corporation described in section 501(c)(3) of the Internal Revenue Code of 1986 and exempt from tax under section
501(a) of such Code may be transferred to an entity that
is not such a corporation, but only under the same conditions as would apply if the debtor had not filed a case
under this title.

91a
3. Me. Rev. Stat. Tit. 14 § 4422:
Exempt Property
The following property is exempt from attachment
and execution, except to the extent that it has been
fraudulently conveyed by the debtor.
1. Residence. The exemption of a debtor’s residence is subject to this subsection.
A. . . . [T]he debtor’s aggregate interest, not to
exceed $47,500 in value, in real or personal property that the debtor or a dependent of the debtor
uses as a residence . . . .
...
C. That portion of the proceeds from any
sale of property which is exempt under this section shall be exempt for a period of 6 months from
the date of receipt of such proceeds for purposes
of reinvesting in a residence within that period.
4. Me. Rev. Stat. Tit. 14 § 4426:
Exemptions in bankruptcy proceedings
Notwithstanding anything to the contrary in the
United States Code, Title 11, Section 522(b), a debtor
may exempt from property of the debtor’s estate under
United States Code, Title 11, only that property
exempt under the United States Code, Title 11, Section 522(b)(3)(A) and (B) . . . .

